<html>
<title> - EXAMINING THE U.S.-NIGERIA RELATIONSHIP IN A TIME OF TRANSITION</title>
<body><pre>[Senate Hearing 111-650]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-650
 
                EXAMINING THE U.S.-NIGERIA RELATIONSHIP
                        IN A TIME OF TRANSITION

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 23, 2010

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                  U.S. GOVERNMENT PRINTING OFFICE
61-669                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON AFRICAN AFFAIRS        

            RUSSELL D. FEINGOLD, Wisconsin, Chairman        

BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   JIM DeMINT, South Carolina
EDWARD E. KAUFMAN, Delaware          BOB CORKER, Tennessee
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma

                              (ii)        




                            C O N T E N T S

                              ----------                              
                                                                   Page

Campbell, Hon. John, Ralph Bunche Senior Fellow for African 
  Policy Studies, Council on Foreign Relations, New York, NY.....    24

    Prepared statement...........................................    26


Carson, Hon. Johnnie, Assistant Secretary of State for African 
  Affairs, Department of State, Washington, DC...................     4

    Prepared statement...........................................     6


Feingold, Hon. Russell D., U.S. Senator From Wisconsin...........     1


Isakson, Hon. Johnny, U.S. Senator From Georgia..................     3


Lewis, Dr. Peter, associate professor and director of the African 
  Studies Program, Johns Hopkins University, Paul H. Nitze School 
  of Advanced International Studies, Washington, DC..............    19

    Prepared statement...........................................    20


Ribadu, Nuhu, visiting fellow, Center for Global Development, 
  Washington, DC.................................................    30

    Prepared statement...........................................    31

                                 (iii)



    EXAMINING THE U.S.-NIGERIA RELATIONSHIP IN A TIME OF TRANSITION

                              ----------                              


                       TUESDAY, FEBRUARY 23, 2010

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:15 a.m., in 
room SD-419, Dirksen Senate Office Building, Honorable Russell 
D. Feingold (chairman of the subcommittee) presiding.
    Present: Senators Feingold, Cardin, Kaufman, and Isakson.

         OPENING STATEMENT OF HON. RUSSELL D. FEINGOLD,
                  U.S. SENATOR FROM WISCONSIN

    Senator Feingold. The hearing will come to order and on 
behalf of the Senate Foreign Relations Committee Subcommittee 
on African Affairs, I welcome all of you to this hearing 
entitled ``Examining the U.S.-Nigeria Relationship in a Time of 
Transition.''
    I am honored to be joined by our ranking member of the 
subcommittee, Senator Isakson, and I'll invite him to deliver 
some opening remarks in just a moment.
    Nigeria has received increased attention by the United 
States media following the Christmas Day attempted terrorist 
attack. Although it appears that al-Qaeda in the Arabian 
Peninsula, based in Saudi Arabia and Yemen, played a 
significant role in Abdulmutallab's recruitment and 
radicalization.
    I don't think we should dismiss the possibility that 
certain conditions in Nigeria have played some role, too, 
however small. I expect we'll discuss this at today's hearing, 
as well as Nigeria's inclusion on the new TSA list of 14 
countries from which travelers will receive additional security 
screening.
    But today's hearing is about far more. The U.S.-Nigeria 
relationship covers a wide range of important issues and 
strategic interests. Nigeria is the most populous country in 
Africa, and the eighth most populous in the world. It is home 
to Africa's largest Muslim population as well as an estimated 
250 ethnic groups. It is Africa's second largest economy and a 
major global supplier of oil. And as a current member of the 
U.N. Security Council, a major contributor to global 
peacekeeping and the host of ECOA's headquarters, Nigeria has 
been a leader in regional--and increasingly--in global affairs.
    For all of these reasons, Nigeria's recent political 
paralysis has been cause for great international concern. Since 
November, President Yar'Adua has reportedly been in a hospital 
in Saudi Arabia. His prolonged absence and failure to appoint 
an interim leader for months created a constitutional crisis.
    Meanwhile, Nigeria's role in key regional matters has been 
diminished and this has been, perhaps, no more evident than 
with the continuing crisis in neighboring Niger.
    Earlier this month, the National Assembly voted to make 
Vice President Goodluck Jonathan, the Acting President, but 
much uncertainty still remains. Nigeria will likely be in a 
state of transition for the foreseeable future, particularly as 
Nigeria moves closer to general elections which are scheduled 
for 2011.
    Sorting out the many political challenges facing Nigeria 
while still respecting the constitution will take time, 
patience, and leadership. A successful transition for Nigeria 
must address the historic tensions and corruption that purveyed 
most of the country's political system.
    Last month, sectarian violence broke out once again in 
Central Nigeria and hundreds of people were massacred. This is 
not the first time we have seen this type of fighting, and yet 
disturbedly, there have been no police investigations despite a 
government pledge to the effect that there would be. A cycle of 
retribution will likely continue until there is some effort to 
achieve accountability, and furthermore the discriminatory 
policies carried out by Nigeria's security forces against 
certain groups, many of them Muslim, has the potential to fuel 
extremism.
    Indeed, in the northeast of Nigeria, the extremist group 
Boko Haram has already sought to exploit these tensions.
    At the same time in the south of Nigeria the crisis 
continues in the oil-rich Delta Region. For the last 30 years, 
local communities in the Niger Delta have been--Niger Delta 
have been marginalized politically and economically. Over time, 
frustration and endemic poverty have given rise to several 
armed groups pursuing increasingly criminal ends. The trade in 
stolen oil from the Delta's vast pipelines, known as 
``bunkering'' has become a lucrative industry and created a 
complex war economy.
    I've tried over recent years to focus on Nigeria's domestic 
climate, because I think it has serious implications for a 
strategic partnership as well as for Nigeria's role as a key 
actor on the global stage. The Obama administration has rightly 
reaffirmed the importance of our bilateral relationship with 
Nigeria, and I look forward to hearing today how we can ensure 
that we have the resources and the diplomatic presence and the 
strategic vision to actively engage with and support Nigeria's 
transitional leadership.
    At the center of this effort, we'll be working with 
Nigerians at the Federal, State and local level to address the 
country's many political and economic challenges, as well as 
working to rather address the many regional and global 
challenges of mutual concern.
    So, with that, let me introduce our witnesses this morning. 
On our first panel, we'll hear from Assistant Secretary for 
African Affairs, Johnnie Carson. Assistant Secretary Carson 
just returned from a trip to Nigeria earlier this month, and it 
has been great to work with him on this and many other issues 
over the last year, and I thank him for his willingness to 
testify.
    On our second panel, we'll hear from three experts. First, 
Ambassador John Campbell who was the U.S. Ambassador to Nigeria 
from 2004 to 2007 and served as a political counselor in 
Nigeria from 1998 to 1990. He served for over 30 years in the 
Foreign Service and now works as a senior fellow for Africa 
Policy Studies at the Council on Foreign Relations. I'll just 
note that Ambassador Campbell has a first-class education; he 
received his Ph.D. from the University of Wisconsin in 1970. 
And returned to Madison in 2007 as a visiting professor.
    Second, we'll hear from Dr. Peter Lewis who is an associate 
professor and director of the African Studies Program at Johns 
Hopkins University School for Advanced International Studies. 
Dr. Lewis has written and worked extensively on issues of 
democratic reform and political economy in Africa, particularly 
in Nigeria.
    And third and finally, we are honored to have with us Mr. 
Nuhu Ribadu. Mr. Ribadu is currently a visiting fellow at the 
Center for Global Development. From 2003 to 2007, he was head 
of Nigeria's Economic and Financial Crimes Commissions, during 
which time he was recognized widely for his efforts to combat 
corruption.
    But he was forced to step down from that post after 
charging a powerful State Governor with corruption in December 
2007 and a year later, he was forced to leave the country after 
facing harassment, death threats, and even attempts on his 
life. In fact, in 2008, both Senator Isakson and I sent a 
letter to President Yar'Adua, requesting that he ensure Mr. 
Ribadu's personal safety. So we're especially glad he's here 
today.
    So, I thank you all for being here. I ask that you keep 
your remarks to 5 minutes or less so we have plenty of time for 
questions and discussion and we'll submit the longer statements 
for the record. And now it's my pleasure to turn, of course, to 
the distinguished ranking member, Senator Isakson.

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, thank you, Chairman Feingold, 
welcome Johnnie Carson, you do a great job on behalf of our 
country on the Continent of Africa, and we are very grateful to 
you.
    I think it is very important that the chairman called this 
hearing today for multiple issues, not the least of which is 
Abdulmutallab's failed attack--fortunately failed attack--in 
Detroit, MI, which raises a lot of questions about Nigeria and 
about al-Qaeda in Nigeria.
    I might also add, Mr. Chairman, as a representative of the 
State of Georgia where Delta Airlines is headquartered, and 
given their attempts to open all of Africa to the United States 
with many routes that they have pending there, aviation 
security is particularly important to me and to them and I 
appreciate all we can learn about that particular incident 
today.
    We also have the differences between the North and the 
South, we have the political issues, we have a nation that is 
rich in oil and we have a nation that is the second highest 
AIDS infection on the Ccontinent of Africa and is a PEPFAR 
participant.
    So, there are multiple reasons today to hear from Secretary 
Carson and the other experts. I welcome them being here, and I 
thank you, Mr. Chairman, for calling the hearing.
    Senator Feingold. Thank you, Senator Isakson.
    Ambassador Carson.

STATEMENT OF HON. JOHNNIE CARSON, ASSISTANT SECRETARY OF STATE 
    FOR AFRICAN AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Carson. Mr. Chairman, Ranking Member Isakson, and 
members of the committee, thank you for this opportunity to 
testify before you today on Nigeria. Nigeria is one of the two 
most important countries in sub-Saharan Africa and a country of 
great significance to the United States.
    I have just returned from a visit to Nigeria and I am 
pleased to share with you my insights on the evolving political 
and economic situation there, as well as the status of United 
States-Nigerian relations.
    First, let me express our shared hope that President 
Yar'Adua, who has been receiving medical treatment in Saudi 
Arabia for the past 3 months, will fully recover. His prolonged 
absence has generated political uncertainty and has challenged 
Nigeria's young democratic institutions.
    The National Assembly's resolution that officially 
designated Vice President Goodluck Jonathan Acting President 
demonstrated Nigeria's resolve to find a peaceful solution to 
the country's leadership vacuum, and we commend Nigeria's top 
elected political leaders for pursuing a transparent process, 
one that has adhered closely to the principles of democracy and 
the rule of law. We will continue to support the Nigerian 
people as they work through their democratic institutions to 
resolve the challenges facing that great nation.
    America's bilateral relationship with Nigeria remains very 
strong, and my recent visit to Nigeria underscored the 
continuing importance of Nigeria to the United States and the 
value of our bilateral relationship. It also provided me with 
an opportunity to discuss areas where the United States can 
engage with Nigeria on issues of importance to both countries.
    In my meetings with a broad spectrum of political, 
religious, and civil society leaders across Nigeria, I 
discussed the important role that elections play in democracy. 
I stress that Nigeria's next Presidential and National Assembly 
elections scheduled for April 2011 must be credible. They must 
be free, fair, and transparent and they must be a significant 
improvement over the country's 2007 Presidential elections, 
which were deeply embarrassing and deeply flawed.
    I urged Nigeria's leaders to make electoral reform one of 
Nigeria's highest priorities. Nigeria's Independent Electoral 
Commission (INEC) has performed poorly over the past decade, 
and has not served the interests of Nigeria well. INEC needs 
new and improved leadership if elections are to have any real 
meaning in that country.
    A multinational team of election experts funded by USAID 
and the British Government completed an electoral assessment in 
Nigeria in January. The United States is prepared to provide 
technical assistance to Nigeria's Election Commission, provided 
they demonstrate a willingness to fulfill the primary role of 
strengthening electoral administration.
    I also spoke to Nigeria's leaders about the economic 
developments and the many challenges facing Nigeria's oil-
dependent economy. The United States is one of Nigeria's 
largest investors, and we seek to support economic development 
in Nigeria by advocating for an improved business climate, 
revitalization of the country's infrastructure and increased 
power generation.
    Nigeria, with a population of 150 million, generates less 
power than the city of Brussels in Belgium. The country has 
only one functioning powerplant, and over 70 percent of its 
power is produced through diesel generators. We support 
President Yar'Ardua's commitment to increase power generation 
to 66,000 megawatts by the end of the year, and we have 
encouraged acting President Jonathan to follow through on that 
pledge.
    We also welcome Nigeria's efforts to reform its energy 
sector, but encourage it to do so in a manner that will 
maximize the use of the country's most precious resource, 
improve the lives of Nigerians and not drive away foreign 
investors in the process.
    I also discussed regional security issues with Nigeria's 
political leaders. Nigeria's record on and commitment to 
regional peace and security is outstanding. Nigeria is one of 
the largest contributors to U.N. peacekeeping missions, and is 
the single-largest contributor in Africa. It has fielded troops 
to trouble spots in West and Central Africa and also to Darfur. 
Nigerian troops played a critical and central role to Liberia 
and Sierra Leone a decade ago.
    We seek to enhance Nigeria's role as a U.S. partner on 
regional security, but we also seek to bolster its ability to 
combat violent extremism within its own borders. Nigeria is a 
partner in counterterrorism efforts, and it is in this context 
that Nigerians have expressed dissatisfaction with their 
inclusion on the Transportation Security Administration's 
``Countries of Interest'' list. Some Nigerians perceived this 
as collective punishment for the actions of one person, when in 
fact they shared our outrage at the attack and have been 
providing assistance in the ongoing United States 
investigations.
    Despite this, our friendship and relationship with Nigeria 
remains strong and continues to be based on a wide range of 
important bilateral issues.
    I also discussed the situation in the Niger Delta with a 
variety of Nigerian leaders. The Niger Delta has experienced a 
period of relative calm, largely as a result of an October 2009 
amnesty agreement that the government negotiated with militant 
leaders in the area. As a result security has improved 
considerably in most areas of the Delta. But a resumption of 
violence can not be ruled out if the government does not follow 
through on the implementation of its rehabilitation and 
reintegration program for the area.
    We commend the government of Nigeria for initiating the 
amnesty process, and we urge acting President Goodluck Jonathan 
to move forward on the implementation of the post-amnesty 
programs.
    During Secretary Clinton's August 2009 visit to Abuja, she 
agreed to establish a United States-Nigeria Binational 
Commission that would allow the United States and Nigeria to 
engage on key bilateral issues including regional security and 
counterterrorism threats, governance and transparency issues, 
the problem of the Niger Delta, and economic development. The 
Secretary intends to move ahead with the signing of that 
Binational Commission agreement in the next 2 months. The 
Secretary has also agreed to reestablish an American diplomatic 
presence in Northern Nigeria in the next 12 to 18 months. We 
currently have no diplomatic representation in Northern 
Nigeria.
    Mr. Chairman, we are enhancing our bilateral engagement 
with Nigeria, despite the enormous challenges we face. We 
remain encouraged by the Nigerian people's commitment to their 
country's democratic foundation and Acting President Jonathan's 
public and private commitments to reform. We will seize the 
opportunity to work with the Government of Nigeria in these 
efforts. Our goal is to help Nigeria fulfill its potential as a 
regional leader, but the Government of Nigeria also has 
obligations that it must meet to address the needs of its 
citizens.
    Thank you again for this opportunity to discuss our 
bilateral relationship with Nigeria. I look forward to 
answering your questions. My full statement has been submitted 
for the record.
    [The prepared statement of Mr. Carson follows:]

  Prepared Statement of Assistant Secretary Johnnie Carson, Bureau of 
       African Affairs, U.S. Department of State, Washington, DC

    Mr. Chairman, Ranking Member Isakson, and members of the committee, 
thank you for the opportunity to testify before you today on Nigeria--
one of the most important countries in sub-Saharan Africa and one of 
the United States most strategic partners. I particularly appreciate 
the abiding interest of the African Affairs Subcommittee in Nigeria. I 
have just returned from a visit there and am pleased to share my 
insights on the evolving situation as well as the United States-Nigeria 
bilateral relationship.
    First, let me express our shared hope that President Yar'Adua, who 
remains absent from the country for medical treatment, will fully 
recover. His absence over the last few months challenged Nigeria to 
find a path forward consistent with its Constitution and in line with 
democratic principles. The National Assembly's resolution that 
officially designated Vice President Goodluck Jonathan as Acting 
President demonstrated Nigeria's resolve, and we commend the commitment 
of all elements of Nigerian society to constitutional process and the 
rule of law. We will continue to support the Nigerian people as they 
work through their democratic institutions to resolve the challenges 
facing their great nation.
    My visit to Nigeria underscored the continuing importance of 
Nigeria to U.S. national interests and the value of our bilateral 
relationship. It also provided an opportunity to discuss areas where 
the United States can engage with Nigeria on issues of importance to 
both countries. My meetings with a broad spectrum of political, 
religious, and civil society leaders across Nigeria focused on our 
shared values and goals, including efforts on governance, elections, 
anticorruption, countering violent extremism and regional security. I 
stressed that the elections scheduled for April 2011 must be credible--
Nigeria cannot afford a repeat of 2007. The February 6 elections in 
Anambra state, while deemed credible, suffered from poor logistics and 
administration, and as little as a 16-percent voter turnout. This is 
one area where the Independent National Electoral Commission (INEC), 
which is in need of improved leadership, must do better.
    Our bilateral relationship with Nigeria remains strong and we 
continue to press forward our mutual strategic goals--achieving free 
and fair elections, building the capacity and commitment to fight 
corruption, promoting economic development, resolving internal conflict 
and enhancing Nigeria's role as a regional leader in conflict 
mitigation, and developing other influential actors in Nigeria such as 
the State Governments and faith communities.
    Elections: While Nigeria has accomplished much in the past 10 
years, it still faces many challenges to meet its full potential. 
Nigeria's 2007 elections were marred by poor organization, widespread 
fraud, and numerous incidents of voter intimidation and violence 
resulting in the deaths of more than 300 people. The 2011 elections 
must be better. As such, I have urged Nigeria's leaders to make 
electoral reform one of Nigeria's highest priorities. I have stressed 
the importance of achieving peaceful transition of civilian rule 
through transparent, free, and fair elections. We have supported 
Nigerian organizations by printing Electoral Reform Commission (ERC) 
recommendations in English, Hausa, and Yoruba, as well as organizing 
symposiums, seminars, and other venues to educate stakeholders.
    A U.S. Agency for International Development and United Kingdom's 
Department for International Development team just completed a joint 
electoral assessment in Nigeria. We continue to urge Nigeria to 
implement the reforms needed to move closer to credible election 
processes and a peaceful transition of civilian rule through 
transparent, free, and fair elections. We are prepared to provide 
technical assistance to Nigeria's election commission provided they 
demonstrate a willingness to fulfill their primary role of 
strengthening election administration.
    Good Governance: The challenges Nigeria faces are principally ones 
of governance. As Secretary Clinton said clearly, ``The most immediate 
source of the disconnect between Nigeria's resource wealth and its 
population's poverty is a failure of governance at the federal, state, 
and local level.'' Endemic corruption is a known culprit, but so is the 
failure to hold political leaders accountable to the people. Improving 
governance is the foundation of U.S. efforts in Nigeria at the federal, 
state, and local levels where we seek to improve transparency, 
accountability, and fiscal responsibility. There can be little progress 
in reducing child mortality, fighting poverty, creating jobs, and 
improving the business climate without improved governance.
    Economic Development: We seek to support economic development in 
Nigeria by advocating for improved business climate, increased power 
generation, and transparency in the extractive industries. Endemic 
corruption is a major factor behind Nigeria's consistently low ranking 
(125 of 183) in the World Bank's ``Doing Business'' report. U.S. 
companies have to follow the Foreign Corrupt Practices Act, and the USG 
has been aggressive in pursuing companies that violate it. We will 
support those Nigerian institutions and organizations that fight 
corruption and inefficiencies that hinder economic growth.
    We welcome Nigeria's efforts to reform its energy sector. We are 
actively engaged in seeing that Nigeria's reforms advance its own 
energy security and provide the income the nation needs to invest in 
development. We applaud Nigeria's participation in the Extractive 
Industries Transparency Initiative (EITI) and encourage Nigeria to 
finalize implementation of EITI's revenue transparency methodology and 
independent validation.
    We embraced President Yar'Adua's commitment to increase power 
generation to 6,000 megawatts by the end of the year and we hope Acting 
President Jonathan takes on this pledge. Major infrastructure 
improvements are critical to developing manufacturing and other nonoil 
sector industries. This is a real challenge for Nigeria and absolutely 
essential for the progress and development of Nigeria and its people. 
The decline in the country's infrastructure--from poor roads to power 
shortages to reduced health and education spending--has led to a 
decline in social indices, reduced manufacturing and food insecurity.
    Regional Security Cooperation: Nigeria's commitment to regional 
peace and security remains exemplary in a troubled continent. Nigeria 
has provided the largest number of peacekeeping troops in Africa. It 
has fielded troops to trouble spots in West Africa and to Darfur, and 
played an important role in returning stability to Sierra Leone and 
Liberia.
    We seek to enhance Nigeria's role as a U.S. partner on regional 
security, but we also seek to bolster its ability to combat violent 
extremism within its borders. Nigeria is a partner in counterterrorism 
efforts, and it is in this context that Nigerians have expressed 
dissatisfaction with their inclusion on the Transportation Security 
Administration's ``Countries of Interest'' list. Nigerians perceive 
this as collective punishment for the actions of a wayward son, when in 
fact they shared our outrage at the attack and have been providing 
assistance to the ongoing investigation. Let me be clear, our 
friendship and relationship with Nigeria is strong and continues to be 
based on a wide range of important bilateral issues.
    We condemn the chronic politically motivated, interreligious 
violence in Plateau State, especially around Jos. The conflict flared 
again in recent weeks, resulting in the killings of more than 100 
civilians. We urge all parties to address the hostility between 
religious and ethnic groups and bring perpetrators of such acts to 
justice. The tensions in the north have religious overtones and are 
perceived by outsiders as fighting between Christians and Muslims; in 
fact, the real conflict is one of politics. Political leaders in 
Nigeria must recognize this and with the help and support of national 
religious leaders promote a dialogue between groups to resolve issues 
peacefully.
    President Barack Obama's speech in Cairo last year called for 
mutual understanding and partnership across gender, religious, ethnic, 
and nationality lines. To meet this call, we seek to expand our 
diplomatic presence in key African countries, most critically, in 
northern Nigeria. Having representation in northern Nigeria will allow 
us to engage key Christian and Muslim leaders in the north, support the 
vibrant civil society, and report on political, economic, and social 
issues.
    Niger Delta: While we are currently experiencing relative calm in 
the Niger Delta, this region remains at the forefront of our bilateral 
agenda. By October 2009, the Nigerian Government persuaded all major 
militant leaders to renounce violence and surrender arms in exchange 
for amnesty, government stipends, training opportunities, and pledges 
of greater development for the Delta. Nigerian officials followed up 
the amnesty program with a series of consultations with Delta 
stakeholders, including ex-militants. To date, security has improved 
considerably in most areas of the Delta, but ex-militants have staged 
protests in Bayelsa, Rivers, and Delta States over lack of progress on 
rehabilitation and reintegration.
    We commend the Government of Nigeria for initiating the amnesty 
process and urge the implementation of the post-amnesty programs. We 
support efforts to establish mechanisms for positive changes in 
governance, curb activities of criminal elements operating with 
impunity in the Delta, and provide economic opportunity and needed 
services for residents of the Niger Delta. We have coordinated closely 
with the international partners and the United Nations Development 
Program (UNDP) to identify opportunities to assist the Nigerian 
Government in this endeavor. The UNDP sent a letter to Minister of 
Defense and Amnesty Committee Chairperson Retired General Godwin Abbe 
in December 2009 offering to engage on the Niger Delta.
    During her August 2009 visit to Abuja, Secretary Clinton agreed to 
establish a United States-Nigeria Binational Commission that would 
allow the United States and Nigeria to engage on key bilateral issues 
including regional security and counterterrorism, and advance 
discussions on governance and transparency issues, Niger Delta post-
amnesty progress, and economic development.
    Mr. Chairman, we are enhancing our bilateral engagement with 
Nigeria, despite the enormous challenges we face. We remain encouraged 
by the Nigerian people's commitment to their country's democratic 
foundation and Acting President Jonathan's public and private 
commitments to reform. We will seize the opportunity to work with the 
Government of Nigeria in these efforts. Our goal is to help Nigeria 
fulfill its potential as a regional leader, but the Government of 
Nigeria must first address the need of its citizens.
    Thank you again for the opportunity to discuss our bilateral 
relationship with Nigeria. I look forward to answering your questions.

    Senator Feingold. Thank you, Ambassador Carson.
    We welcome Senator Cardin who has joined us and we'll begin 
with 7-minute rounds.
    I'd like to start off my questioning with one about this 
Nigerian political crisis that you talked about. Goodluck 
Jonathan's appointment as Acting President may avert a 
political crisis for the time being, but going forward I think 
it seems pretty clear that just calling on Nigeria to adhere to 
its constitution is insufficient to avert another political 
crisis. Can you say more about that? Whether you're sure of 
that and what steps the administration is taking to head off 
any political crisis that might reemerge down the road?
    Mr. Carson. Thank you, Mr. Chairman.
    The United States has been watching the political situation 
in Nigeria for the last several months and our diplomacy has 
been active and engaged. Shortly after President Yar'Adua left 
for Saudi Arabia, the Embassy and I and Washington began to 
reach out to senior leaders across Nigeria--across the 
political spectrum--encouraging them that there would be a 
democratic and stable transition if one were required.
    Secretary of State Clinton issued a statement along with 
the British and French Foreign Ministers and Baroness Ashton 
some 1 month ago, also encouraging the Nigerian political elite 
to act responsibly during this period of uncertainty. My trip 
out to Nigeria approximately 2 weeks ago was also intended to 
encourage all of the political leadership there to act 
responsibly in ensuring that there would be stability and a 
commitment to constitutional and democratic change if it were 
required.
    We were concerned, as we should be, given Nigeria's long 
history of military involvement that we did not want to see a 
return of the military to power in an unconstitutional way in 
Nigeria. I think the Nigerian leadership has acted 
thoughtfully, responsibly, and along democratic lines in 
resolving the current crisis.
    But, Mr. Chairman, you're right. We're not out of the woods 
yet. We won't be out of the woods until Nigeria holds its next 
Presidential election, until it has a President that all of the 
people have had an opportunity to select and vote for.
    Senator Feingold. In that context, let me say a little bit 
comparing our policies toward Nigeria and Kenya. Both are 
clearly important, as you've said, United States strategic 
partners on the African Continent. And both struggle with deep-
seeded and often crippling corruption.
    In the case of Kenya, this administration you, yourself, 
Ambassador Carson, have taken a tough public line calling on 
the Unity government in Nairobi to enact meaningful reforms and 
to ensure investigations into corruption allegations. And the 
administration has backed up that public line with travel bans 
against corrupt high-level officials and the suspension of some 
development assistance.
    With regard to Nigeria, the administration's statements 
have not been backed up by such targeted measures or tangible 
steps. Why is this? What, Ambassador, would trigger the 
administration taking a tougher public stance toward Nigeria 
including the implementation of targeted measures of the type 
that we took with regard to Kenya?
    Mr. Carson. Mr. Chairman, we have been outspoken and strong 
on Nigeria, encouraging as I say, a democratic succession 
process. We haven't, in the past, taken and imposed visa 
sanctions on individuals who have been engaged in corruption 
and in criminal activities and I will provide a list of 
individuals that we have so targeted in the past for criminal 
activities, mostly related to money laundering, drug issues and 
such crimes.
    But let me just also say that we have been very assertive 
in pressing the Nigerians, particularly on issues related to 
democracy and governance. I, myself, in my statement noted that 
the Independent National Election Commission under the current 
chairman, Maurice Iwu, has not in effect served the interests 
of Nigeria well. In the last three elections out there, we have 
seen a constant deterioration in the ability of the Commission 
to perform at a high level within a democratic context.
    We have spoken out and said that this needs to be changed. 
I, in fact, met with Maurice Iwu, the chairman of INEC and 
clearly laid on the line our concerns about the need for a 
much, much better electoral process in the future. These have 
been also--these representations have also been made to other 
senior government officials in Nigeria.
    There is a need for good elections, there is a need for 
improvement, there is a need for change.
    Senator Feingold. Thank you.
    Ambassador, I know that you share my belief that we need a 
stronger and more sustained diplomatic capacity throughout 
Africa, and in Nigeria in particular, although our Embassy--we 
have an Embassy in Abuja and a consulate in Lagos and our 
Foreign Service officers are doing great work there--but I 
remain concerned, as I have been ever since I visited different 
parts of Nigeria in 2001, I have been concerned that these 
offices do not have the resources or reach the need they have 
to engage on the Nigerian Government on multiple levels.
    Specifically on the reach issue, our diplomats continue to 
be limited in their ability to travel to many parts of Nigeria, 
including the North and the Delta. This, in turn, limits their 
ability to report on and analyze the situation in those 
regions. So, what steps are we taking to address these 
limitations and expand our diplomatic presence outside of Abuja 
and Lagos?
    Mr. Carson. Thank you, Mr. Chairman. We totally agree with 
you and Secretary Clinton has responded. She has committed to 
reopening a diplomatic presence in Northern Nigeria, quite 
likely Kano. Today, in 2010, we have fewer diplomatic 
establishments in Nigeria than we had 25 years ago, when we had 
an Embassy in Lagos, a consulate in Abaden, a consulate in 
Kaduna, an American presence in Kano, and a presence in Eastern 
Nigeria, as well, prior to the civil war.
    We are committed to reestablishing our diplomatic presence 
in the North, it's extraordinarily important that we do so, I 
think, as you pointed out, Nigeria is the sixth-largest Muslim 
state in the world, the second-largest Muslim country in 
Africa, and we have no diplomatic presence in the----
    Senator Feingold. What kind of a size of contingent are you 
talking about in Kano or in Northern Nigeria?
    Mr. Carson. I would think that we would be looking at 
somewhere between three and five Americans up there. And we 
are, in fact, dispatching--next week--a team of officers from 
the State Department to go and look at site and security 
measures that would have to be implemented before we can--I'm 
extremely pleased to hear that, Ambassador.
    Thank you, Ambassador.
    We welcome Senator Kaufman, and I turn to Senator Isakson 
for his round.
    Senator Isakson. Thank you, Mr. Chairman.
    Continuing on the comment about the Muslim population for 
just a second, since the arrest of Abdulmutallab, other than 
putting ``Countries of Interest'' category of Nigeria, has 
anything else been done by the United States regarding that?
    Mr. Carson. Senator Isakson, the answer is absolutely, yes.
    When I went to Nigeria last week, I spoke to a number of 
Nigerian officials, and I urged them to do four things that we 
think are absolutely essential. We asked the Nigerian 
Government to allow United States Sky Marshals to fly on any 
planes originating in Nigeria and coming into the United 
States.
    Second, we asked the Nigerian Legislature to pass tougher 
counterterrorism laws. We said that the existing laws on the 
books are insufficient to reach those individuals engaged in 
terrorist activities.
    Third, we asked the Nigerians to improve their airport 
security, and we offered to provide assistance in helping them 
to do so.
    And fourth we asked--and I asked specifically, a number of 
senior officials including Acting President Goodluck Jonathan--
to speak out more forcefully on issues related to the threat 
that terrorism poses to all of us, globally, in Nigeria, in the 
United States and across the world. But that they should 
recognize that they, too, can in fact have terrorist-related 
problems.
    So, we've asked them to do those four things and we will 
continue to encourage them to do it. We think that it is in 
their interest, it reassures the traveling public, whether it's 
Nigerian or American, and it also helps to reassure companies 
like Delta that want to fly into--Delta, Continental, and 
others--who want to fly into the Nigerian market.
    Senator Isakson. Twice during your testimony you referred 
to some of the religious conflict as the religions actually 
being surrogates for politics, or political movements. Which 
religion is whose surrogate?
    Mr. Carson. I think that depends, Senator, on the 
particular regions. And I think that a lot of the conflict that 
we see in Nigeria does, in fact, have a political origin, and 
that political leaders use religion as a vehicle to project, in 
advance, their political interests. But it can depend on where 
the conflict is taking place. I think that political leaders 
can use Islam or Christianity as a scapegoat for some of the 
current political problems that exist both in the North, the 
South, and in the middle belt.
    Senator Isakson. In the studies I've done, al-Qaeda 
generally tries to befriend the most radical sects of Islam, I 
know there are various sects. Do you know what sect of Islam is 
predominant in Nigeria?
    Mr. Carson. Most Nigerians are Sufi and very moderate 
Muslims.
    Senator Isakson. With regard to being on the Gulf of 
Guinea, in my visit to equatorial Guinea--and I have not been 
to Nigeria--we were attempting to get an increased presence of 
United States naval vessels because of some of the potential 
terrorist threat as well as narcotrafficking, things of that 
nature. Do you know if Lagos or the port city of Nigeria have 
allowed any United States naval visits, or are there any 
planned to go there?
    Mr. Carson. Yes, indeed, there have been United States Navy 
visits, and they have been occurring on a regular basis for the 
last several years of the United States Navy and AFRICOM have a 
program called the West African Partnership Station, in which 
they send a frigate down the West Coast, hitting most of the 
major West African cities, including Lagos. The African 
Partnership Station had to be cancelled, just about a month ago 
because it was requested to respond to the earthquake in Haiti.
    Senator Isakson. Right.
    Mr. Carson. But approximately a week and a half ago, a 
different U.S. frigate called in at Lagos as a port call, they 
carried out a number of activities, the band played around 
Lagos, the crew received ship leave and moved on. So, there are 
regular port visits by the Navy, the Africa Partnership Station 
is the recurring activity. But there was, in fact, a port visit 
just a week ago from another non-Africa Partnership United 
States naval vessel.
    Senator Isakson. Last, just acknowledging in your remarks 
that twice you referred to corruption as a major problem, first 
in free and transparent elections, and second in economic 
development. That is a similar problem in Kenya--it has been 
the same type of problem. What kind of reaction did you get 
when you opened up corruption discussions on your most recent 
visits to Nigeria? Is the Government looking the other way, or 
is there going to be a sincere interest to try and reduce it?
    Mr. Carson. Corruption is a pernicious cancer in many parts 
of Africa. It is particularly pernicious in Nigeria. I spoke to 
a number of government officials about the need to crack down 
on grand corruption, both at the national and at the local 
level. I also spoke to Acting President Goodluck Jonathan about 
this. I was very pleased at his responses, I was also very 
pleased that when he spoke on television that he said that he 
would, in fact, move against corruption in his country. He 
recognizes that this is a major problem.
    But, we will have to see whether there is a strong 
commitment. You will be hearing, on the second panel, from one 
of Nigeria's most prominent corruption fighters--a man who has 
dedicated his life to trying to eradicate the scourge of 
corruption. He can probably tell you far more than I can how 
very, very difficult it is to get at corruption in Nigeria.
    It requires political will, it requires good judges, it 
requires good prosecutors, and it requires--more than anything 
else--a commitment and a resolve to make this an activity that 
will not, any longer, be sanctioned at any level by those in 
the central government, or those at the state government. A 
great deal of Nigeria's corruption occurs, and is in the hands 
of, government officials at the state and at the national 
level.
    Senator Isakson. Thank you, Mr. Chairman.
    Senator Feingold. Thank you, Senator Isakson.
    Senator Cardin.
    Senator Cardin. Well, thank you, Mr. Chairman.
    And Secretary Carson, it's always a pleasure to have you 
before our committee and we thank you for your service.
    Well, let me follow up on corruption for one moment, 
because the major source of corruption, it seems to me, in 
Nigeria, deals with the fact of its mineral wealth. It's a 
country that's very much dependent upon oil and gas. If my 
numbers are correct, about 80 percent of its revenues--or more 
than 80 percent of its revenues comes from oil and gas. It's 
the--95 percent of its exports, it's the largest in Africa, and 
one of the 10 largest in oil globally.
    It became an application country for the EITI--the 
Extractive Industries Transparency Initiative. It's my 
understanding they were in danger of being delisted because of 
their poor preparations for the EITI. Mineral wealth, for many 
countries, has become a curse because it becomes the source for 
corruption; that's where the money is. And EITI offers an 
opportunity for transparency, so that the companies that are 
participating in Nigeria are required to list their contracts 
publicly, so the public knows where the money is going.
    The prospect here is to try to get the wealth to the 
people. Nigeria--because of corruption--is a country in which 
the general populace does not benefit from the wealth of its 
own country. And until we correct that, it seems to me it's 
going to be extremely difficult to see how the economic and 
political reforms have a chance of advancing that country.
    So, I guess my question to you is, what is the position of 
the United States regarding Nigeria's efforts to become a 
member of EITI and to use the leverage we have in that country 
to make sure that the companies that are participating in 
Nigeria are prepared to release and make public their mineral 
contracts?
    Mr. Carson. Senator Cardin, I agree with you totally. We 
think that it is important that Nigeria be a member and a 
strong and willing participatory member in EITI. There is no 
question that oil and gas in Nigeria have been more of an 
economic curse than an economic benefit for that country.
    It is a source of a great deal of Nigeria's current 
corruption and its current economic woes. As you point out, it 
has been for much of the last decade, the largest source of 
income. It also has been the largest producer of oil and gas in 
sub-Saharan Africa. But much of the country's wealth has been 
squandered and/or stolen. And it has been stolen by individuals 
mostly occupying government positions, both at the national 
level and at the state and local level.
    Issues of bunkering--where oil is stolen from pipelines and 
pushed onto ships--is also quite common. There have been 
sweetheart preferential agreements made that have also led to 
oil being stolen, as well. This has been a major problem for 
Nigeria over the last two decades.
    There is an absolute need for greater--much greater--
transparency in the way Nigeria's oil revenues are handled. 
Some of that transparency started to creep into the system 
about 6 or 7 years ago during the first term of President 
Obasanjo, but then as he moved into his second term, some of 
the effort and desire to clean up the oil industry, make the 
books more transparent, make the revenue flows clear, 
disappeared.
    But the country must do more, the political leadership has 
to do more, there has to be a greater degree of transparency. 
If it is not, then we will see a continued squandering of the 
nation's wealth.
    Senator Cardin. I guess my question is, How does the United 
States leverage its relationships in Nigeria to make sure that 
in fact progress is made? In 2007, Nigeria became an 
application country in EITI. Two years later, it was almost 
delisted because of its failure to really move forward on the 
requirements on EITI. We have active engagement, including your 
visit last week, how do we--plus assistance, United States 
gives a substantial amount of aid to Nigeria--how do we 
leverage that, so that 2 years from now we've not talking about 
this as to, ``Gee, there was some progress made,'' and then 
they slip back. How do we make sure that there's continued 
progress toward transparency? In oil, how do we do that?
    Mr. Carson. Senator Cardin, we can't guarantee it. What we 
can do is continue to focus a spotlight on the problem, put a 
spotlight on those individuals who we think are engaged in 
corrupt activities, work with reformers who want to see the 
system cleaned up, encourage the government to prosecute--
increase--encourage more work by the Economic and Financial 
Crimes Commission to take an aggressive stance against 
individuals engaged in corruption, exposing those at the upper 
and the lower levels who were involved in activities, and also 
where we can--and where we have evidence--sanction through visa 
restrictions individuals who we believe are engaged in corrupt 
activities.
    But in the end, it does require the political will and 
leadership of Nigeria's top officials to make the changes that 
are there.
    I would also say one thing about aid, if I could----
    Senator Cardin. Before we leave that, I just want to----
    Mr. Carson. Absolutely.
    Senator Cardin [continuing]. Just underscore the point the 
chairman made. You certainly shouldn't give the impression by 
how we recognize Nigeria about credibility to corrupt 
practices, or the lack of progress that's being made, whether 
it's on watch lists, or other considerations that are being 
asked--or in our aid. We should make it clear that we do not 
accept their failure to move forward, as they should have, on 
the EITI, for example. Let's be--just urge us to be more open 
in our assessment of Nigeria and not try to pretend that 
progress has been made, when it hasn't.
    Mr. Carson. Senator, I couldn't agree with you more. I 
think I've probably been pretty blunt in saying that corruption 
in Nigeria is a cancer and a curse. It has undermined the 
ability of the country to move forward economically, and it 
remains one of the most serious and pressing problems that they 
have. It requires political leadership in Nigeria at the very, 
very top levels. We're in no way, sort of, trying to brush it 
aside or to push it off of the front pages; it is a major, 
major, major problem out there and it exists at the highest 
levels and it goes down to state governments, as well.
    But in the end, our pressure--which we should continue to 
maintain--is only one part of the equation. We need to support 
people in Nigeria, reformers who are also committed to pushing 
ahead on corruption.
    If I could say, on our aid, we do have a substantial aid 
program in Nigeria, some $550 million, but most of that money--
probably 80 percent of it--is in the health care area. It is in 
fighting HIV/AIDS and malaria, and is absolutely needed for the 
people of Nigeria. Probably another 5 or 6 percent of that goes 
into democracy and governance work where we are trying very 
hard to empower civil society. So, there isn't a whole lot that 
is outside of the area of health care and democracy and 
governance. What we actually give in straight development 
assistance is probably less than 7 or 8 percent of that total 
package.
    Senator Feingold. Thank you, Senator Cardin.
    Senator Kaufman.
    Senator Kaufman. Mr. Chairman, I want to thank you again 
for holding, excellent timing on this hearing. And I know no 
one is concerned more about corruption than Ambassador Carson.
    But, you know, it brings to mind that wherever you go in 
Africa, in my opinion, if you point to one thing to change 
things is dealing with corruption. I mean, it just, wherever 
you go, you just see these places that would be great if we 
didn't have corruption.
    And, Mr. Chairman, I just think we have a lot--and Senator 
Cardin's questions are right on point--but I think you could 
ask those questions about every--not every--but many of the 
nations in Africa. Mr. Chairman, could we think about having a 
hearing and bringing together some of the great minds and try 
with a systemic approach?
    Senator Feingold. Certainly we'll look at that--you 
couldn't be more right that this is----
    Senator Kaufman. I mean, because----
    Senator Feingold [continuing]. But I would say that this 
country has a particularly sever problem, and I don't want to 
lump all of the African countries----
    Senator Kaufman. No, no, and I'm not. But I'm just saying, 
there's so many of them when you go and you look at what the 
problems are, it's a problem. And this thing, the Millennium 
Challenge Corporation's requirement for dealing with corruption 
is excellent, there are people that talk about that would, 
Senator Cardin said, that you know, it's a curse to have all of 
these natural resources, when you go to the countries that have 
the high natural resources, they have the most corruption and 
they're the ones that are having the most problems. It's really 
almost better to be--not have anything.
    And I'm not painting with a broad brush, but it just seems 
to me an approach that--just talking to the leaders and 
demanding it, it's not like we've got aid, as you point out, 
it's not like aid is something that, if we threaten we're going 
to remove it, you know, is an incredible problem. It's just 
getting some thinkers together on some kind of a systemic 
approach to this thing--how about our allies? I always thought 
the World Bank and IMF--everybody--getting together and trying 
to figure it out, and as I say again, the Millennium Challenge 
program, I think, was an excellent one, where countries had to 
demonstrate the fact that they were dealing with corruption, 
had specific things to do, is a way to approach it.
    So, again, I know no one cares more about this than our 
present witness. I'd like to ask you about something else that 
I think affect a great deal in corruption, I know something you 
care a great deal about, but the problem is, when you list all 
of the things you're talking about it doesn't come up. And yet, 
I think--and that is the press situation, the freedom of the 
press in Nigeria and throughout Africa.
    When you look at the Freedom House surveys and far too 
often the countries listed as trending toward not free or not 
free are the same countries that have high levels of 
corruption. I really do believe that, you know, and one of the 
great things we have in the United States is a free press. 
Brandeis' comment about sunshine is a wonderful disinfectant, 
the people that drive sunshine are the media and having an 
aggressive media in a country makes corruption even more 
difficult. Where does the free press in Nigeria stand at this 
point?
    Mr. Carson. Senator Kaufman, one of the good things about 
Nigeria is its press and its press freedoms. There is no 
question that Nigeria probably has a large number of 
newspapers, they are vibrant and active and many of them are 
critical--harshly critical--of the government. They do, in 
fact, run exposes on corruption and corrupt individuals, and 
they do find a way of getting the story out there, even when 
politicians and other government leaders don't want it to be 
told.
    A good example of that is reflected in the reporting on the 
medical absence of President Yar'Adua. While many top 
government officials have, in effect, suggested that the 
President is out of the country only for a minor illness, much 
of Nigeria's aggressive press has suggested that the President 
would be away for much longer and is much seriously ill than 
any politician around President Yar'Adua has said.
    The press has also been willing to criticize and expose 
individuals who were engaged in corruption. Yes, they do, in 
fact, exercise some restraint, some self-censorship as to avoid 
any kind of lawsuits that might be leveled at them for not 
having the evidence that would underpin a good story. But the 
press in Nigeria is, in fact, aggressive, it's vibrant, it's 
alive and it's independent for the most part, although there 
are some papers and news media are allied to political parties 
and there is a government media organization. But the press is 
alive and well and needs to be encouraged to continue to do 
what it's doing. If anything, it probably has a streak of 
yellow journalism about it in some areas.
    Senator Kaufman. Wasn't there a strong press law that they 
tried to pass that didn't get passed by the legislature?
    Mr. Carson. I'm not sure about any recent press laws. I 
would have to check.
    Senator Kaufman. Would you check? That would be good.
    Mr. Carson. I will.
    [The written response supplied by Mr. Carson follows:]

    In November 2009, the House of Representatives' Committee on 
Information set up a technical committee of stakeholders to review the 
contentious Nigerian Press and Practice of Journalism Council bill. The 
committee produced a compromise bill--Nigerian Press Council 
(Amendment) Bill 2009--which they presented to the National Assembly 
for consideration on December 23, 2009. At present, the bill has not 
yet been scheduled for further consideration by the National Assembly.

    Senator Kaufman. And how about--the last time I checked 
they were trying to pass a law to limit the international 
broadcasters broadcasting into Nigeria? The Voice of America, 
do you know where that stands?
    Mr. Carson. The Voice of America can't be heard broadcast, 
but we do have rebroadcast--you can hear it on certain 
stations--but it's rebroadcast, there.
    Senator Kaufman. Yes. Because that's really--you talk about 
spotlight, one place to--I've learned over the years that 
that--leaders don't want is--they don't want Voice of America 
broadcasting about corruption and things like this and exposing 
it to the rest of the continent.
    Mr. Carson. Yes, I think we--we're certainly are--we are 
rebroadcast there and some of our programs are very, very, 
very, very popular. The Voice of America does a program with 
Nigerian students who are studying at the college level in the 
United States. And they interview the students, mostly in 
Housa, and they talk about their experiences as college 
students, graduate students in the United States and it is an 
extremely popular program throughout Northern Nigeria.
    Our programs--our rebroadcasts there, both in English and 
in some of the vernacular languages, and I know first and 
foremost they've been told that BBC World Service is probably 
the most popular international news program in Nigeria, it is a 
source of information for many, many, many of the country's 
educated and informed elite.
    Senator Kaufman. I know Voice of America has a large 
listenership in Nigeria, in fact, it's one of the largest 
listenerships in the world.
    Thank you, Mr. Chairman.
    Senator Feingold. Thank you, Senator Kaufman.
    I'll start a second round.
    Ambassador, turning to the Delta, specifically, prior to 
his extended absence, President Yar'Adua had announced some 
promising initiatives to address the underdevelopment of the 
region, following on the amnesty program for militants. And 
Acting President Jonathan is, himself, from the Delta and has, 
as I understand it, committed to continue to work with his 
predecessor to address the instability there. How, 
specifically, can the United States assist him to turn that 
commitment into a viable plan?
    Mr. Carson. The United States stands ready to help the 
Nigerian Government in the Delta through programs aimed at 
reconciliation and at helping to find ways to generate the 
local economy, helping to generate jobs and to providing 
microfinance and microcredit schemes that can be useful in 
helping to help people improve their economic circumstance.
    We would also be helpful and willing to be helpful in other 
areas, as well. Over the years, the Nigerians have not 
encouraged or sought out a great deal of outside assistance in 
trying to resolve the problems of the Delta. But I was, in 
fact, encouraged on my trip 2 weeks ago that Acting President 
Goodluck Jonathan was, in fact, prepared to accept outside 
support--in the economic and social areas, I stress--not in any 
security or police-related areas.
    Senator Feingold. While Christmas Day attacker Umar Farouk 
Abdulmutallab's actions were clearly more influenced by 
conditions and actors in Yemen, it is notable that he grew up 
in the region of Nigeria that has experienced repeated clashes 
between Muslim and Christian communities. So, I want to ask you 
about the potential for violent extremist groups that 
flourished in Nigeria last summer, in Northern Nigeria we saw 
the extremist group Boko Haram, which is sometimes referred to 
as the ``Nigerian Taliban'' fighting against security forces. 
And I know that we are here, sir, in an unclassified setting. 
But do you believe Boko Haram's emergence is an isolated 
phenomenon, and to what extent are you concerned about the 
potential for violent extremism to take root in Nigeria?
    Mr. Carson. Nigeria's had a history in the North of violent 
extremism. It has always been, for the most part, inwardly 
directed, groups like Boko Haram have focused their attention 
on attacking government installations, police establishment, 
administration buildings and have not, in fact, gone after 
international targets or citizens of other countries.
    I think that the emergence of organizations like Boko Haram 
will continue in Nigeria as long as there are social and 
economic issues of that community's face that are not being 
addressed by the central government or by local governments.
    Senator Feingold. So, I'm taking your answer, at this 
point, to suggest that as far as you can tell, Boko Haram is 
more an isolated incident. Is that fair?
    Mr. Carson. I would say, Senator--Mr. Chairman--that Boko 
Haram is, in fact, a domestic organization, not an 
international organization, and that its targets are Government 
of Nigeria institutions. It is a way that these organizations 
express their resentment and anger to--about, and to, the 
government for lack of attention to their demands and lack of 
attention to services required for their community.
    Senator Feingold. And in a related question, along similar 
lines, al-Qaeda and the Islamic Magrab maintains a twin 
presence in both North Africa and the Sahal. And some of those 
Shal countries, as you well know, are nearby or actually 
neighboring Nigeria, so again, recognizing that we're in an 
unclassified setting, I wonder if you might share how concerned 
you are given the conditions and existing tensions in Northern 
Nigeria that AQIM may expand into Nigeria.
    Mr. Carson. Well, let me say, at this point, Mr. Chairman, 
we don't see any direct linkages between al-Qaeda and the 
Islamic lands of the Magrab and organizations such as Boko 
Haram. We do not see linkages.
    But let me also say that groups like AQIM look for new 
areas to expand into. There are a number of groups in Northern 
Nigeria who continue to have grievances and serious grievances 
against the government, individuals in those groups could, in 
fact, become gargets of recruitment for AQIM. At this point we 
do not see any established linkages there.
    Senator Feingold. And as I said in my opening remarks, I'm 
concerned that abuses and discriminatory policies by Nigeria's 
security forces, particularly against Muslim communities, could 
also feed into extremism. I'd like your thoughts on this issue 
and Nigeria's capacities to deal with terrorism while 
maintaining due process and civil liberties?
    Mr. Carson. The Nigerian security forces--while attempting 
to do a good job--do not have an exemplary record in human 
rights. There have been known excesses that have occurred in 
the fighting in the Delta. There have been known excesses, even 
most recently, in putting down the conflict in Jost, where both 
soldiers and police have used excessive force in trying to 
arrest and restrain individuals. No question of that more is 
needed in terms of supervision and training of security forces, 
especially in dealing with civilian populations. The excesses 
have been there, the Delta is a classic case, ongoing, while 
the conflict was there, and Jost, more recently, there have 
been some very credible reports of excessive use of force in 
stopping the violence there.
    It is always a sad situation when military have to be 
brought out to undertake what should, in fact, be police 
operations. And when there is an absence of restraint by any 
security forces, it's an issue.
    These things are noted in our human rights report that we 
issue annually, and they will be noted when the next edition 
comes out.
    Senator Feingold. Thank you, Ambassador.
    Senator Isakson.
    Senator Isakson. I have no further questions.
    Senator Feingold. Thank you very much, again, Ambassador. 
And we can now go to the second panel.
    All right, now we'll begin with the second panel. When 
we're ready, we'll begin with Dr. Lewis. All right, Doctor, you 
may proceed.

STATEMENT OF DR. PETER LEWIS, ASSOCIATE PROFESSOR AND DIRECTOR 
THE AFRICAN STUDIES PROGRAM, JOHNS HOPKINS UNIVERSITY, PAUL H. 
 NITZE SCHOOL OF ADVANCED INTERNATIONAL STUDIES, WASHINGTON, DC

    Dr. Lewis. Thank you, Senator Feingold, Mr. Chairman, 
Senator Isakson, Senator Kaufman, for your invitation to 
address this hearing and for your sustained involvement with 
contemporary issues regarding Africa. I welcome the opportunity 
to discuss the current situation in Nigeria.
    Although Nigeria and the United States share many common 
interests and have generally maintained cordial relations, 
Nigeria's chronic problems of poor governance and domestic 
turbulence have often raised dilemmas for United States policy.
    The current situation in Nigeria is fraught with challenges 
to the nation's political advancement and stability. At the 
same time, the temporary resolution of the succession crisis 
presents opportunities for change in Nigeria and improvement in 
our bilateral relations. The United States should engage Acting 
President Goodluck Jonathan, while consistently pressing for 
needed political reform and enhanced efforts toward peace and 
development in the Niger Delta.
    I want to briefly address three questions: To what extent 
has Nigeria's leadership crisis been resolved? What are the 
critical issues for advancing governance and stability at this 
point? And, what role should the United States play at this 
juncture?
    President Umaru Yar'Adua, as we've heard, has been absent 
from Nigeria for 3 months, apparently in grave condition in a 
Saudi hospital. There is no indication from any quarter that he 
will be able to return to fulfill his official duties.
    The timing and circumstances of his illness are especially 
unfortunate since Nigeria faces serious security issues, 
including a shaky amnesty following a military offensive 
against militants in the Niger Delta, recurring clashes with 
Islamist sects in the northern states--Boko Haram as well as a 
separate sect in Bauchi--and continuing economic problems from 
the global downturn.
    Since the President's departure from the country, we have 
witnessed the Christmas Day attack on a United States flight by 
a Nigerian national, an upheaval of interreligious violence in 
the central city of Jos in which several hundred people died, 
and other challenges. Amidst these serious problems, the 
country has effectively lacked executive leadership.
    The sense of drift and paralysis in Abuja has been 
aggravated by the political elite's reluctance to allow a 
constitutional transfer of power. Fearing their loss of 
influence and spoils, Yar'Adua's inner circle and key notables 
have obstructed information and procedures that could have 
quickly dispelled the crisis.
    Under mounting pressure from public opinion, a vocal 
political opposition, and growing concern about possible 
military intervention, the political establishment was finally 
moved to transfer authority to Vice President Jonathan through 
the February 9th resolution from the National Assembly. The 
confirmation of an Acting President resolves the leadership 
question for the time being, in accord with the spirit, if not 
the formal letter, of the Constitution. Civilian politicians 
have crafted a workable solution that is preferable to the 
alternatives of a leadership vacuum, a power grab by a rival 
faction, or a military intervention.
    However, this incident serves to highlight deeper problems 
in a political system that is increasingly dominated by a 
single political party, lacking in broad accountability, and 
mired in corruption and patronage politics. The leadership 
crisis arises out of the deeply flawed 2007 elections, possibly 
the worst in the nation's history, which brought forward 
President Yar'Adua and Vice President Jonathan through a back-
room nomination process and a highly questionable election.
    Nigeria's fragile democratic system has steadily been 
eroded by the near-monopoly of the ruling party and an 
associated cartel of elites that has come to control much of 
the government. Without a competitive and accountable electoral 
process, it was possible for an infirm President and a few 
retainers to take the reins of government. Without a well 
established rule of law, it was impossible to quickly manage 
the leadership succession in the face of Presidential 
incapacity.
    The transfer to an Acting President does not resolve these 
deep-seated challenges, but it does create opportunities for a 
modicum of governance and some progress on reform. Clearly more 
vigorous than his predecessor, Jonathan has articulated a set 
of goals for his brief tenure, including reform of the 
electoral system prior to next year's scheduled elections; an 
extension and consolidation of the peace process in the Niger 
Delta; improvement of the decrepit electric power grid; and a 
reinvigoration of anticorruption efforts.
    To conclude, these are essential priorities for Nigeria and 
the United States should take every opportunity to encourage 
progress, while offering critical support and pressing for 
added reforms.
    I'll finish there and I will welcome your questions. Thank 
you.
    [The prepared statement of Dr. Lewis follows:]

Prepared Statement of Peter M. Lewis, Director, African Studies Program 
and Associate Professor, Johns Hopkins University, Paul H. Nitze School 
           of Advanced International Studies, Washington, DC

    Thank you for the invitation to address this committee and for your 
sustained involvement with contemporary issues regarding Africa. I 
welcome the opportunity to discuss the current situation in Nigeria, 
Africa's most populous country and an important bilateral relationship 
for the United States. Although Nigeria and the United States share 
many common interests and have generally maintained cordial relations, 
Nigeria's chronic problems of poor governance and domestic turbulence 
have often raised dilemmas for U.S policy.
    The current situation in Nigeria is fraught with challenges to the 
nation's political advancement and stability. At the same time, the 
temporary resolution of the succession crisis presents opportunities 
for change in Nigeria and advancement in our bilateral relations. The 
United States should continue to engage with Acting President Goodluck 
Jonathan, while consistently pressing for needed political reform and 
enhanced efforts toward peace and development in the Niger Delta.
    I want to briefly address three questions: To what extent has 
Nigeria's leadership crisis been resolved? What are the critical issues 
for advancing governance and stability in Africa's most populous 
country? What role should the United States play at this juncture?
    President Umaru Yar'Adua has been absent from Nigeria for 3 months, 
apparently in grave condition in a Saudi Arabian hospital. He has not 
been seen by the public, nor has he spoken to anyone outside a tiny 
inner circle of family and retainers. There is no indication that he 
will be able to return to fulfill his official duties.
    The timing and circumstances of his illness are especially 
unfortunate. Yar'Adua's hospitalization came in the wake of a May 
military offensive against militants in the embattled Niger Delta, 
followed by a fragile amnesty initiative in October. Government forces 
also clashed in July with an Islamist sect in the northern states, 
resulting in a number of civilian deaths. Throughout this period 
Nigeria has been grappling with the effects of the global economic 
downturn.
    Since the President's departure from the country, we have witnessed 
in quick succession the Christmas day attack on a U.S. flight by a 
Nigerian national, confrontation with another group of Islamists in the 
northern Bauchi state, and an upheaval of interreligious violence in 
the central city of Jos with a death toll in the hundreds. The cease-
fire in the Niger Delta also appears to be fraying, as some militants 
have resumed action or threatened to go back to war. Amidst these 
serious problems, the country has effectively lacked executive 
leadership.
    The sense of drift and paralysis in Abuja has been aggravated by 
the political elite's reluctance to allow a constitutional transfer of 
power. Fearing their loss of influence and spoils, Yar'Adua's inner 
circle and key notables have obstructed information and procedures that 
could have quickly dispelled the crisis.
    Under mounting pressure from public opinion, a vocal political 
opposition, and growing concern about possible military intervention, 
the political establishment was finally moved to transfer authority to 
Vice President Jonathan. A February 9 motion by the National Assembly 
declared the President to be on medical leave, and empowered the Vice 
President to act in his absence.
    The confirmation of an Acting President resolves the leadership 
question for the time being, in accord with the spirit, if not the 
formal letter, of the Constitution. Civilian politicians have crafted a 
workable solution that is preferable to the alternatives of a 
leadership vacuum, a power grab by a rival faction, or military 
intervention.
    However, this incident serves to highlight deeper problems in a 
political system increasingly dominated by a single political party, 
lacking in broad accountability, and mired in corruption and patronage 
politics. The leadership crisis arises out of the deeply flawed 2007 
elections, possibly the worst in the nation's history, which brought 
forward President Yar'Adua and Vice President Jonathan through a back-
room nomination process and a highly questionable election.
    Nigeria's fragile democratic system has steadily been eroded by the 
near-monopoly of the ruling People's Democratic Party (PDP) and the 
associated cartel of elites that has come to control much of the 
government. Without a competitive, accountable electoral process, it 
was possible for an infirm President and a few retainers to take the 
reins of government. Without a well-established rule of law, it was 
impossible to quickly manage leadership succession in the face of 
Presidential incapacity.
    The transfer to Acting President Jonathan does not resolve these 
deep-seated challenges, but it does create opportunities for a modicum 
of governance and some progress on reform. Clearly more vigorous than 
his predecessor, Jonathan has articulated a set of goals for his brief 
tenure, including reform of the electoral system prior to next year's 
scheduled elections; an extension and consolidation of the peace 
process in the Niger Delta; improvement of the decrepit electric power 
grid; and a reinvigoration of anticorruption efforts.
    He also reportedly disavows any interest in contesting the 
Presidency in 2011, which would upset the delicate regional power 
rotation that underlies national politics.
    These are essential priorities for Nigeria, and the United States 
should take every opportunity to encourage progress in these areas, 
while offering support where possible.
    However, even this limited policy agenda will face considerable 
challenges:

  <bullet> Electoral Reform: Elections in Nigeria have historically 
        been compromised by weak administration, fraud and violence, 
        carrying severe consequences for democratic development. Since 
        the 1999 transition to civilian rule, there has arguably been a 
        worsening trend in the quality of elections. The 2007 polls, 
        marred by widespread violence and misconduct, produced an 
        outsized majority for the ruling party, continuing a worrying 
        trend that has limited pluralism and violated the rights of 
        millions of voters. Not surprisingly, opinion surveys and 
        popular commentary reveal a sharp decline in the legitimacy of 
        the electoral system and public estimations of democracy.
      Electoral reform is a requisite for credible and peaceful 
        elections in 2011. A commission inaugurated by President 
        Yar'Adua in 2007 has furnished strong recommendations for 
        revising the electoral system, including new leadership and 
        increased financial independence for the Independent National 
        Electoral Commission (INEC). Acting President Jonathan has an 
        opening to implement these measures, though the window of 
        opportunity is brief, with the election season just a year 
        away. Resolve will be needed to surmount resistance from within 
        the ruling party and the political class, who benefit from the 
        flawed status quo.
  <bullet> The Niger Delta: The situation in the Niger Delta has 
        degenerated into a virtual insurgency, depressing oil 
        production and undermining security throughout much of the 
        region. The restiveness in the Delta is grounded in 
        longstanding grievances over poverty, government neglect, 
        environmental degradation and the abuse of human rights. In 
        recent years, the economic agendas of militant groups engaged 
        in abduction and oil smuggling have aggravated the situation. A 
        comprehensive solution to the crisis in the Niger Delta will 
        require a sustained peace process, political reform, and 
        accelerated development efforts throughout the area.
      In October 2009, following a military offensive against key 
        militant camps, the government concluded an amnesty program for 
        fighters in the Niger Delta. Several important commanders 
        brought in thousands of supporters and surrendered a 
        significant cache of weapons. The lull in hostilities permitted 
        a recovery of oil production and encouraged hopes for a more 
        sustained peace. Unfortunately, the amnesty was not accompanied 
        by broader conflict resolution efforts, steps toward political 
        change, or development initiatives. After a few months, the 
        amnesty program lost momentum, and some militant commanders 
        warned of a resumption of conflict.
      Acting President Jonathan is from Bayelsa state in the ``core'' 
        Niger Delta, and has played a role in negotiating with 
        militants and community members in the region. He can also draw 
        upon the comprehensive recommendations of last year's Technical 
        Committee that outlined a map for resolving the Delta crisis. 
        Jonathan has already sounded a different note in allowing for 
        the possibility of international cooperation in addressing the 
        Delta's problems. External assistance can be especially helpful 
        in implementing a demobilization, disarmament and reintegration 
        (DDR) process, and in advancing development programs for the 
        region. Professionalization of security forces and improvements 
        in the human rights situation are additional areas of potential 
        cooperation.
  <bullet> Infrastructure: It is widely recognized that Nigeria's 
        economic growth and diversification are seriously constrained 
        by deficient infrastructure. Significant advances have recently 
        been achieved in telecommunications, but transport, domestic 
        fuel supply, and electric power fall well short of need. 
        Several billion dollars have been allocated over several years 
        to the revitalization of the power system, with little result. 
        A substantial increase in electric power supply would jump-
        start the economy and boost approval for the civilian regime. 
        Concerted attention from the Presidency can potentially yield 
        results, as regulatory and technical changes are in prospect, 
        and resources have been devoted to this program. Improvement of 
        the regulatory and investment climate will also be imperative.
  <bullet> Anticorruption: Nigeria's leading anticorruption agency, the 
        Economic and Financial Crimes Commission (EFCC), made dramatic 
        progress under the leadership of Nuhu Ribadu from 2003-07. 
        Hundreds of prominent public officials were investigated, 
        indicted, or jailed, and billions of dollars in illicit funds 
        were recovered. Since Ribadu was demoted and sidelined by the 
        new administration, the agency's efforts have lagged 
        considerably. In explaining the shift, many observers note the 
        prominence of figures in Yar'Adua's inner circle such as James 
        Ibori, a former Delta State governor charged with corruption.
      Acting President Jonathan is not burdened by a reputation for 
        misconduct, and he has pledged to revitalize the anticorruption 
        campaign. Obviously, there are many powerful interests in 
        Nigeria who will oppose such efforts, and political resolve 
        will be essential here as well. Largely as a result of the 
        EFCC's work, Nigeria has improved considerably in Transparency 
        International's corruption perception rankings. Continued 
        efforts to stem malfeasance could improve the business climate, 
        attract investment, and rejuvenate political life.

    There are of course a number of other areas that require attention, 
including the management of Nigeria's volatile religious and ethnic 
tensions, and rising concerns about religious extremism and security. 
In addition, the administration has to grapple with controversial 
reforms in the oil sector, a set of overdue constitutional changes, 
improved supervision of banks, continued prudent macroeconomic 
management in the face of global economic distress, security sector 
reform, and reform of the ruling party to encourage internal democracy 
and accountability. In view of the limited tenure of the Acting 
President, Jonathan has outlined a modest and potentially achievable 
agenda. If he is able to shepherd electoral reform and conflict 
resolution in the Niger Delta, improve electricity supply and tamp down 
corruption, this will be an impressive legacy.
    It is fortuitous that the National Assembly acted during a visit to 
Nigeria by Assistant Secretary of State Carson. His immediate 
engagement with the Acting President, and the statement of Ambassador 
Sanders, has helped to improve communication with an administration 
that has frankly been chilly toward U.S. overtures. This is a promising 
basis for working with the new leadership on important common 
interests, as well as cooperation on strengthening Nigeria's democratic 
stability.
    In engaging the Nigerian leadership, it is essential to send a 
clear and consistent message on the need to reform and strengthen 
democratic institutions, build a rule of law, and resolve problems 
through constitutional means. We can and should address immediate 
bilateral issues and the preferred agenda of the current leadership in 
Abuja, though we must not lose sight of our broader concerns for a 
Nigeria that is democratically governed, respects the rights of its 
citizens, manages conflict effectively, and promotes economic expansion 
and the reduction of poverty. There is much room for cooperation, but 
also an imperative to press for a more competitive, transparent, and 
accountable state in Nigeria.
    One urgent concern is obviously the potential of terrorist 
activities emanating from Nigeria. Following the December 25 incident 
involving a Nigerian national, Umar Farouk Abdulmutallab, Nigeria was 
included by the Transportation Security Administration (TSA) among 14 
``countries of interest'' connected with terrorism. Nigerians are 
understandably affronted by this classification. Abdulmutallab was 
substantially radicalized and trained outside the country, and was 
brought to the attention of U.S. authorities by his father, a prominent 
banker and moderate Muslim. Fortunately, the U.S. Government has 
outlined a viable path for Nigeria to be dropped from the TSA list, 
including the denunciation of terrorism, passage of antiterrorist 
legislation, and improved airport security. This early step could open 
the door to further cooperation in other policy areas.
    In the domain of electoral reform, the United States can play a 
constructive role in supporting Nigerian initiatives. If the 
Independent National Electoral Commission (INEC) receives new 
leadership, rules and funding, it could warrant technical and financial 
assistance from external donors, including the United States. The 
leading U.S. democracy-promotion organizations have been working in 
Nigeria since 1998, and could readily engage in the development of 
electoral institutions. These efforts will of course be contingent on 
initiative from Nigerian leaders.
    In the Niger Delta, there is significant opportunity for external 
assistance in conflict resolution and development. Outside actors, many 
of whom are already intensively involved with the issues in the Delta, 
can be helpful in engaging or mediating among militants, companies, and 
the government. Bilateral and multilateral assistance can furnish 
technical support and pivotal resources for development programs. 
International organizations, notably the U.N., can provide essential 
oversight of DDR efforts. Here too, Nigerian officials and 
constituencies must lead, but there are several potential areas of 
effective external collaboration.
    On the economic front, the Nigerian administration has sustained 
prudent macroeconomic policies throughout the economic downturn. The 
privatization and reorganization of critical infrastructure has largely 
been supervised by Nigerian officials and advisers, with support from 
the multilateral financial institutions. The crucial factor in guiding 
investment toward the power sector will be a credible regulatory 
regime, and a generally favorable setting for the private sector. There 
is room at the margins for external technical assistance, but this is 
an area in which Nigerian initiative will be the deciding factor in 
success.
    If the new leadership demonstrates clear commitment to a renewed 
anticorruption drive, there is much that the United States can do to 
cooperate. One important measure would be to tighten restrictions on 
money-laundering and the movement illicit assets through this country 
and our banking system. The London Metropolitan police have made the 
U.K. much less hospitable for corrupt Nigerians who seek a haven there, 
and we should seek to match that level of effort through our own 
regulatory and police institutions. We can also render direct resources 
and assistance to the EFCC, as has been done in the past, to enhance 
local capacities for insuring accountability and enforcing the law.
    In conclusion, Nigeria's leadership succession crisis highlights 
deeper problems of governance and social stability. The failure of the 
political establishment to respond promptly to the President's illness 
reflects division and self-interest among governing elites, and the 
general weakness of constitutional rule. The poor quality of elections, 
an increasingly dominant ruling party, and limited accountability 
throughout the political system have increasingly alienated the 
Nigerian public. In a setting of poor governance, the country's 
multiple social tensions have fostered violence and polarization. These 
dilemmas reverberate well beyond the country's borders.
    While the political settlement elevating Vice President Jonathan 
leaves open some legal issues, this measure alleviates the leadership 
vacuum in Abuja and presents a reasonably strong agenda for the rest of 
the administration's term in office. Acting President Jonathan has 
targeted essential priorities including conflict resolution in the 
Niger Delta, electoral reform, and new action against corruption. If 
the government demonstrates resolve in pursuing this agenda, the United 
States can find many areas of cooperation in advancing these goals.
    More generally, the change in leadership holds out the possibility 
that the United States will have better channels of dialogue with the 
administration in Abuja. We should take this opportunity to press for 
needed political reform and improvements in governance, while extending 
areas of common interest and collaboration. An active, but critical 
engagement holds out the best opportunity for working with Nigerians to 
advance democracy, better governance, and a more dynamic economy.

    Senator Feingold. Doctor, thank you for your testimony.
    Ambassador Campbell.

STATEMENT OF HON. JOHN CAMPBELL, RALPH BUNCHE SENIOR FELLOW FOR 
AFRICAN POLICY STUDIES, COUNCIL ON FOREIGN RELATIONS, NEW YORK, 
                               NY

    Ambassador Campbell. Thank you for the opportunity to 
discuss the transition in Nigeria. Here I want to highlight 
some of the main points in my written submission.
    Acting President Goodluck Jonathan faces three major 
challenges: The incomplete basis of his Presidential authority; 
smoldering ethnic and religious conflict in the Middle Belt 
with deep discontent in the North; and the government's 
inadequate followup to its amnesty in the Delta.
    The National Assembly's designation of Vice President 
Goodluck Jonathan as Acting President was welcomed by many in 
Nigeria and abroad. It ended the void in executive authority 
that resulted from President Yar'Adua's illness, and it 
occurred through a political process rather than by military 
intervention. Others, however, are not so sanguine.
    They observe that the National Assembly acted 
unconstitutionally. One distinguished Nigerian journalist has 
characterized what happened as a ``democratic coup.'' A 
complication is the unwritten principle of regional power 
sharing between the Christian South and the Muslim North. The 
National Assembly's vote means that the Presidency shifts back 
to the South, at least until the 2011 elections, thereby 
shortening the North's turn.
    Nigerians care about American opinion. A forthright stand 
on Jonathan's need to bring his Presidency into line with the 
constitution would encourage the country's political leaders to 
find a better legal basis for his administration.
    Paralysis of the Yar'Adua government has precluded a 
Nigerian regional leadership role commensurate with the 
country's heft. It remains to be seen what Nigeria will do 
about the coup in adjacent Niger. If weak government continues, 
Nigeria risks becoming increasingly irrelevant, regionally and 
to the United States.
    Meanwhile, the nonofficial bilateral relationship goes from 
strength to strength, without much reference to Abuja or 
Washington. American people-to-people links with Nigeria are 
more extensive than with any other African country. There is a 
vibrant, productive Nigerian-American community in the United 
States. Nigerian civil society looks especially to the United 
States as a model of democracy and the rule of law.
    As for building the official relationship, Nigeria and the 
United States have started to establish a Binational 
Commission. Unfortunately, there has been little movement on 
the Nigerian side since the illness of President Yar'Adua. It 
is to be hoped that progress will resume under the new Nigerian 
administration.
    For many Americans, Nigeria's halting progress toward 
democratic development has been disappointing. Nigeria has had 
three elections since 1999, each worse than its predecessor. 
There has been no progress on electoral reform to date, and 
there is little evidence that the elections of 2011 will be any 
more credible than those of its predecessors; things could 
change.
    As for the insurrections in the Delta there had been hopes 
that President Yar'Adua's amnesty for the militants would kick-
start a political process to address the region's grievances. 
That did not happen, hence the prospect of renewed attacks on 
the oil industry.
    The Technical Committee Report issued in 2008 provided an 
overview of the best thinking about how to address the 
underdevelopment and the alienation of the Delta. It 
highlighted the Niger Delta Regional Development Master Plan, 
itself the result of 6 years of stakeholder consultation. 
Though it promised to do so, the Yar'Adua government has not 
issued a white paper based on the Technical Committee Report. 
Friends of Nigeria should again urge the Jonathan 
administration to do so.
    The Yar'Adua administration also did not follow up its 
amnesty of Delta militants with meaningful training programs. 
Again, friends of Nigeria should urge the Jonathan 
administration to keep that promise. We should also continue to 
reiterate our message of military restraint. The Niger Delta 
cannot be solved by force of arms.
    Let me close with a brief comment on sectarian violence in 
the Middle Belt and the North. Episodes such as the July 
insurrection of Boko Haram and this winter's ostensibly ethnic 
and religious conflict in Plateau State both reflect and 
promote an radicalization of some of the Islamic population; 
how many is hard to judge. However, domestic radicalization--
though inward focused--could facilitate in the future the 
activities of international terrorist groups.
    Nigerians like to say that they are masters of dancing on 
the edge of the precipice. The vision of Nigeria as a huge, 
multiethnic, multireligious state that is democratic and 
governed according to the rule of law is in the interest of the 
United States, Africa, and the international community. That 
vision animated the founders of the Federal Republic, and it 
has never died. Those working for a democratic Nigeria deserve 
our support.
    Thank you, Mr. Chairman, and I look forward to your 
questions.
    [The prepared statement of Ambassador Campbell follows:]

 Prepared Statement of Hon. John Campbell, Ralph Bunche Senior Fellow 
 for Africa Policy Studies, Council on Foreign Relations, New York, NY

    Mr. Chairman, thank you for the opportunity to discuss the evolving 
political situation in Nigeria, perhaps sub-Saharan Africa's most 
important country, and central to the interests of the United States. 
As members of this subcommittee are well aware, Nigeria has the 
unfulfilled potential to be a leader of the African Continent. It has 
approximately 150 million people--about the same as the Russian 
Federation--its democratic aspirations date back to independence, and 
it has the continent's second largest economy. In the recent past, it 
has also been an important diplomatic partner of the United States, 
especially with respect to West African security.
    Nigeria continues to be a major source of oil for the international 
market. It is the fifth, sometimes the sixth, largest supplier of 
imported petroleum to the United States. Interruptions in the flow of 
Nigerian oil to the world market can influence how much Americans pay 
at the pump for a gallon of gas. International oil prices deeply affect 
the American economy, as we saw during the summer of 2008 when we were 
paying more than $4 for a gallon of unleaded.
    Let me now turn to the specific questions I was asked to address in 
the committee's letter of invitation.

What are the major issues or challenges facing Acting President 
Goodluck Jonathan?

    The Acting President faces three crises at present: the 
unconstitutional basis of his Presidential authority, smoldering ethnic 
and religious conflict in the Middle Belt, and the government's 
inadequate followup to its amnesty program in the Delta with the 
prospect of renewed militant attacks on the oil industry.
    While the National Assembly's unconstitutional designation of Vice 
President Goodluck Jonathan as the Acting President did end the void in 
executive authority that dated from President Yar'Adua's mid-November 
Saudi hospitalization, it did not address the political and 
institutional failures that led to the current constitutional crisis. 
Nevertheless, many in Nigeria and abroad have welcomed the Jonathan 
interim Presidency, particularly because the transition occurred 
through a political process rather than by military intervention. 
Others are not so sanguine.
    Spokesmen for some Nigerian nongovernmental organizations say that 
the National Assembly acted unconstitutionally, thereby endangering 
Nigeria's fragile democratic development. One distinguished Nigerian 
journalist has characterized the Acting President as ``the product of a 
democratic coup.'' Furthermore, Ridle Markus, Africa strategist at Absa 
Capital (London), noted in the Financial Times that, ``the National 
Assembly's motion may not have any legal backing, which means every 
decision Goodluck makes could potentially be declared unlawful.''
    A further complication is the unwritten principle of regional 
power-sharing between the Christian South and the Muslim North in 
Nigerian governance. If the President is from the North, as is Umaru 
Yar'adua, then the Vice President is from the South, as is Goodluck 
Jonathan. The National Assembly's vote means that the Presidency has 
shifted back to the South at least until the 2011 elections, thereby 
shortening the North's turn. Northern political leaders appear to have 
accepted the National Assembly's action in part because they were 
disunited over any alternative. But they are likely to resent 
Jonathan's administration.
    Considering the North's multiple sources of discontent, it is too 
early to say what the impact will be of the military coup in Niger. 
However, there is always the risk that some will be tempted to imitate 
what their Nigerien cousins have done.
    Legal and constitutional avenues do exist to remove or suspend a 
Nigerian President because of his or her inability to carry out 
mandated duties. Nevertheless, Nigerian politics and government 
institutions, thus far, have been unable or unwilling to respond to the 
void in Presidential authority created by Umaru Yar'Adua's illness in a 
way required by the constitution. Nigeria has a history of military 
chiefs of state replacing each other outside the law. Jonathan's Acting 
Presidency is, however, the first time a civilian chief of state has 
replaced another civilian extra-constitutionally. This illegality could 
be resolved if President Yar'Adua resigns or is constitutionally 
removed from office, which would end Jonathan's ``acting'' status and 
render his Presidency constitutional. There are hopeful signs that a 
consensus may be forming in the National Assembly and other political 
circles on the need to establish a constitutional basis for the 
Jonathan administration.

How strongly should the United States and the international community 
press for Nigeria to adhere to its Constitution and avoid a deeper 
political crisis?

    This current crisis, particularly in conjunction with the series of 
rigged elections over the last 10 years, has certainly damaged 
Nigeria's democratic development and credentials. However, because of 
its size and regional leadership role as well as its historical 
democratic aspirations, Nigeria should lead West Africa in democracy 
and the rule of law. For that reason alone, Nigeria's friends, 
especially the United States, should urge that Nigerians take the 
necessary steps to lift the cloud of unconstitutionality from the 
Jonathan administration. They should urge the Acting President, the 
Cabinet and the National Assembly to take the painful steps necessary 
to determine, in good faith, if President Umaru Yar'Adua will be able 
to resume his constitutional duties and, if not, remove him from office 
following constitutional procedures. Otherwise, Nigeria becomes an 
example of legal and constitutional set-aside in the name of short-term 
political expediency.

What leverage does the United States have that it can use to that end?

    Nigerians care about the United States opinion of them, and they 
desire a positive international reputation. They are particularly 
conscious of their historic leadership role in African multilateral 
organizations. Therefore, it matters what the Obama administration and 
congressional leaders say to them about democracy and the rule of law. 
The views of the African Union and other international organizations 
such as the Commonwealth are also influential.
    For example, the consistent, strong public U.S. position opposing a 
military coup appears to have had a positive impact on Nigerian public 
opinion. Already many Nigerians believe that military coups allegedly 
planned for December 31, 2009, and January 15, 2010, were averted 
because of senior officer fear of international disapproval. Similarly, 
the United States should make full use of its access to the Nigerian 
media to ensure that its support for Nigeria's Constitution and the 
rule of law is known and understood. A forthright stand on Jonathan's 
need to bring his Acting Presidency into line with the Constitution 
would encourage the country's political leaders to find a 
constitutional and legal resolution to the present crisis.
    Finally, Nigerian elites relish the opportunity to travel to the 
United States and to own property there. The power of the U.S. 
Government to revoke visitors' visas is particularly potent personal 
leverage with members of the Nigerian elites.

What is your general assessment of the current United States-Nigerian 
relationship, especially in light of the Christmas Day attempted 
terrorist attack and Nigeria's inclusion in the new 14-country 
screening requirement?

    After the restoration of civilian governance in 1999, the bilateral 
relationship between the Nigeria and the United States became close, 
particularly because of Nigeria's constructive regional activism. Like 
his military predecessors, President Obasanjo (1999-07) personally 
played a positive and creative role in addressing security crises in 
West Africa. The Obasanjo administration was also diplomatically active 
in the Africa Union and the Economic Community of West African States, 
and sought to strengthen both organizations. Nigeria became one of the 
largest suppliers of peacekeepers to the U.N. and the African Union, 
and still today plays a major peacekeeping role in Darfur. President 
Obasanjo was one the first leaders of a major African state to visit 
Washington after 9/11 to express his support. The United States 
supported international debt relief for Nigeria, at least in part to 
demonstrate support for Nigerian democracy.
    However, Nigeria's current travails could weaken the official 
bilateral relationship. The paralysis of the Nigerian Government since 
the onset of President Yar'Adua's illness has reduced the role Nigeria 
plays on African regional issues. A Nigeria that is diplomatically 
active in a way commensurate with its heft is very much in the 
interests of the United States, particularly in its leadership and 
support for regional organizations such as the AU and ECOWAS. They have 
been important fora in which the international community has responded 
to a host of African issues.
    The Nigerian Government's weakness since the onset of President 
Yar'Adua administration has already reduced the role the country plays 
on African regional issues. For example, Nigeria did not demonstrate 
its traditional diplomatic leadership in the resolution of the 
political and humanitarian crises in Guinea. It remains to be seen if 
Nigeria will play a central role in countering the coup in Niger. 
Goodluck Jonathan has just been made the chairman of the Economic 
Community of West African States, an organization that should play a 
central role addressing the crisis in Niger. How he responds to a coup 
in a country that shares a porous border with his own will be his first 
international test as chief of state. If paralysis or weak government 
continues, Nigeria risks becoming ever more irrelevant, regionally, and 
to the United States.
    Because of its heft, some Nigerians have an exaggerated view of the 
importance of their country on the international stage. As admirers of 
the United States, Nigerian elites expect Washington to reciprocate and 
to show special understanding for their shortcomings. Hence, there was 
resentment that President Obama did not visit Nigeria on his first trip 
to Africa. While Nigerians were deeply embarrassed by Farouk 
Abdulmutallab's failed terrorist attack against an American airliner on 
Christmas Day, they are resentful of the Obama administration's 
inclusion of Nigeria on the security watch list. They argue that 
Abdulmutallab's radicalization occurred in the United Kingdom or Yemen 
rather than in Nigeria. They see a disparity of treatment between 
Nigeria on the one hand and the United Kingdom and Saudi Arabia on the 
other. They argue that the Shoe Bomber was British, and most of the 9/
11 terrorists had Saudi links. Yet neither the United Kingdom nor Saudi 
Arabia is on the security watch list. So, why is Nigeria? Nevertheless, 
injured Nigerian rhetoric does not mean that the security watch list 
has significantly damaged the relationship and some thoughtful 
Nigerians have even expressed the hope that more stringent security 
screening may have the consequence of reducing the transfer of 
Nigeria's wealth illegally out of the country.

In what areas is the bilateral relationship strongest?

    Nigeria and the United states influence each other in ways more 
than diplomacy, security, and energy. People-to-people links between 
the United States and Nigeria are more extensive than with any other 
African country. There is a vibrant, productive Nigerian-American 
community in the United States that may number 2 million. It is a 
successful immigrant community characterized by entrepreneurship, 
strong family ties and an emphasis on education. Nigerians like to say 
that more than 1 million of them have also been to the United States 
for extended periods and have since returned home, positively 
influenced by their American sojourns. Popular culture from New York 
and Los Angeles is ubiquitous in Lagos, while Fela Ransom-Kuti's 
``afro-beat'' and other musical styles of Nigerian origin have 
influenced American pop. Nigeria's legions of unemployed university 
graduates dream of a U.S. visa.
    American educational, religious and civil society links to Nigeria 
are also probably more extensive than with any other African country. 
Over the years, many Nigerians have received their university 
educations in the United States. Nigeria now has a small community of 
private universities that are organized on the American model and teach 
an American curriculum. Churches of the same denomination on both sides 
of Atlantic have close links. Nigerian civil society especially looks 
to the United States as a model of democracy and the rule of law. 
Nigerian legislators and judges at every level relish contact with 
their American counterparts. U.S. and Nigeria Government agencies 
cooperate closely around HIV/AIDS and other health issues. Otherwise, 
the nonofficial relationship is growing and strengthening without much 
reference to Abuja.

What opportunities exist for strengthening the relationship?

    Resulting from Secretary Hilary Clinton's 2009 visit to Nigeria, 
the two countries have undertaken the establishment of a binational 
commission. This would provide a framework for extensive, official 
cooperation of issues of mutual concern. Unfortunately, there has been 
no movement on the Nigerian side since the illness of
the President. It is to be hoped that progress will resume under a new 
Nigerian administration.

What are the main weaknesses and challenges?

    For the United States, Nigeria's halting progress toward democratic 
development has been a disappointment. Nigeria had elections in 1999, 
2003, and 2007--each one was worse than its predecessor. Following 
failed efforts to amend the constitutional mandated term limits so that 
Obasanjo could run for a third term, the President imposed on the 
ruling party his own candidates, Umaru Yar'Adua and Goodluck Jonathan, 
setting the stage for the current constitutional crisis. They were 
elected President and Vice President in 2007 elections that lacked 
credibility, nationally and internationally. Nevertheless, there was 
little public protest, which suggests that the Nigerian public have 
largely lost confidence in their leadership.
    Jonathan faces enormous challenges, even if he establishes his 
constitutional legitimacy. He must manage the crisis in the Delta and 
the smoldering ethnic and religious conflict in the Middle Belt. He 
needs to restart the major Presidential initiatives that have come to 
halt with President Yar'Adua's illness. Economic and electoral reforms 
are at a standstill, and government programs in the Delta have stopped 
or were never started. At present, there is little evidence that the 
elections of 2011 will be any more credible than those of its 
predecessors.

Could the United States be doing more to help bring lasting peace to 
the Niger Delta, mitigate tensions in central Nigeria, and encourage 
greater constructive engagement throughout the continent?

    The current round of violence in the Delta dates from late 2005. 
Its root causes are its inhabitants' alienation from the rest of the 
Federation because of its lack of development, and grievances over the 
federal government's formula for allocating oil revenue to states and 
the local authorities. There is a significant criminal dimension to 
militant activity as well: kidnapping and oil bunkering is very 
profitable. Politicians dabble in Delta violence to advance their own 
agendas. Militants have demonstrated their ability to bring Nigeria's 
oil industry to its knees, should they choose to do so. They have shown 
that they can attack even offshore production facilities.
    There had been high hopes that President Yar'Adua's amnesty for the 
militants who surrendered their weapons would kick-start a political 
process that would address that region's grievances. This did not 
happen. Goodluck Jonathan is an Ijaw from the Delta, and expectations 
are high in the region that he will at long last address their 
grievances.
    But, it will be difficult for an Acting President to overcome the 
political obstacles and move forward. The civilian political cycle in 
the Delta is also unfavorable. Candidates are already vying for ruling 
party nominations for the elections of 2011. In the runup to elections 
in 2003 and 2007, they recruited militias to fight their opponents 
within the party. The bloodshed was greatest in the year before the 
polling. Hence, 2010 will likely be especially bloody even without the 
change in the Presidency.
    Nevertheless, there is a way forward. The Technical Committee 
Report issued in 2008 provided an overview of the best thinking about 
how to address the underdevelopment and alienation of the Delta. It 
highlighted the Niger Delta Regional Development Master Plan, itself 
the result of 6 years of stakeholder consultation. The Master Plan 
envisions an extensive program of youth training that would lead to 
work programs that, in turn, would be harnessed to a coherent 
development plan. Though it promised to do so, the Yar'Adua 
administration did not issue a white paper on the Technical Committee 
Report, the next step. Friends of Nigeria should again urge the 
Jonathan administration to issue the white paper. Similarly, the 
Yar'Adua administration has not followed up its amnesty of Delta 
militants of 2009 with meaningful training programs that could address 
youth unemployment, as it had also promised to do. Again, friends of 
Nigeria should urge the Jonathan administration to do so. The United 
States has particular expertise in youth training and employment 
strategies that could help. We should offer our expertise. We should 
also reiterate our message of military restraint. The Niger Delta 
cannot be solved by force of arms.
    Let me close with a brief comment on sectarian violence and 
lawlessness in the Middle Belt and the North. The violence last summer 
associated with the Boko Haram insurrection in the North was horrific 
and had to be suppressed by the army. Ostensibly religious, conflict 
around Jos this winter also resulted in many deaths and thousands of 
displaced persons. Again, order could be restored only by the army, and 
the violence still smolders.
    Such episodes both reflect and promote an increased radicalization 
of some of the Islamic population--how many, and what percentage of the 
whole is hard to judge. But, the North's population is very poor--
poorer even than the population of the Delta by some measures. Its 
leadership may fear marginalization if Jonathan's government is 
dominated by his fellow Southerners.
    Up to now, radicalization in the North has been inward looking, 
concerned with opposing the secular government in Abuja rather than the 
western ``Great Satan.'' Associations with al-Qaeda such as 
Abdulmutallab's have been rare. Nevertheless, domestic Islamic 
radicalization could facilitate in the future the activities of 
international terrorist groups hostile to the United States. It will 
bear watching.
                               conclusion
    Nigerians like to say that they are masters of dancing on the edge 
of the precipice without falling off. The success of Nigeria as a huge, 
multiethnic, multireligious state that is democratic and governed 
according to the rule of law is in the interest of the United States, 
Africa, and the international community. That vision animated the 
founders of the Federal Republic at the time of independence, and it 
has never been abandoned through military coups, civil war, the oil 
boom, mega-corruption and the current leadership crisis. That vision 
continues today too, but it is in danger. Those working for a 
democratic Nigeria deserve our support. And such support is in our own 
interest.
    Thank you, Mr. Chairman.

    Senator Feingold. Thank you, Ambassador.
    Mr. Ribadu.

  STATEMENT OF NUHU RIBADU, VISITING FELLOW CENTER FOR GLOBAL 
                  DEVELOPMENT, WASHINGTON, DC

    Mr. Ribadu. Thank you, Mr. Chairman. And thank you for 
inviting me and for your sustained interest in Nigeria. But let 
me just seize this opportunity to reiterate more strongly my 
appreciation for your intervention. You have really, literally 
helped--I'm here simply because of people like you. At a time 
when the Nigerian Government turned against people like me, you 
stood up, you spoke, and it has made a difference.
    We disagreed--we Nigerians somehow understood this to be 
more than ordered, though. We feel it--we feel we have been 
unfairly treated and mismanaged by our own people, and that is 
the situation, that is the cause of all of the dissidence that 
we are talking about; mismanagement, incompetence, poor, poor, 
more or less close to criminal handling of our own affairs that 
resulted to what we are talking about. Whether it is 
Abdulmutallab, whether it is Niger Delta, or literally all of 
the things that we are talking about it.
    Some of us talk against it, we fought. And you followed 
exactly what happened. But if there is going to be a 
difference, it has to come from us. We Nigerians will have to 
stand up and we need the support of good people like you. You 
showed that it could be done.
    Only 2 days ago a colleague of mine that I worked with was 
murdered in Abuja, simply for standing up to say, ``We disagree 
with the way we have been managed.'' And, Mr. Chairman, I want 
to tell you that really, Nigerians are your friends. And at the 
end of the day, like what Dr. King--Reverend Martin Luther 
King--said, in the end, who will remember, we will not remember 
the wrong things or bad things that was done, but we will 
remember our friends who refused to say anything. The friends 
that are quiet or silent. Some people like you refuse to be 
silent when you see bad things happening.
    Today, Nigeria has a wonderful opportunity to turn around. 
We have a new leadership and the possibilities are there. I am 
here, and I agree completely with almost all of those things 
that have been said so far, but I want to reiterate importantly 
the issue of fighting corruption. If you address the problem of 
corruption, they are likely going to address all of the other 
things that we've talked about.
    I have already made my own submission, and they are all 
there. But, I think, Mr. Chairman, there is a need for us to 
really take this seriously. We have had good, beautiful things 
been said from Secretary Clinton to so many others, but action 
is needed. We need to go to the specifics. Elections--what are 
we going to do now? Time is getting late, already we have less 
than a year for those elections.
    What are the things that we could do that may make a 
difference? And they are simple, basic things, for example, to 
engage the leadership at the highest level and tell them, 
``Time has come for you to change.'' Come up with things that 
would make the elections possible.
    For example, get good and credible people who are going to 
manage these elections, who have a Commission that is there, 
out there, waiting for implementation. We need institutions 
here to stop talking and directly lead with Nigeria and civil 
societies and so that a difference can be made.
    When the issue of corruption, which is so fundamental, 
which is really, if there's going to be difference, it has to 
be in that direction.
    Already, you have done so much, particularly the Department 
of Justice, there are a lot of--so many cases that we have done 
together that are still out there that need to be followed. Go 
after these corrupt people. They fear the reach of the U.S. 
name and shame, go after those who are using your own 
institutions and structures to continue to cheat and steal from 
their own people. You will see the difference it can make.
    Already, some actions have been taken, but we need more of 
that. These are some of the specific things that can make a 
difference, but the most important, Mr. Chairman, is the issue 
of law and order. Most of the things that you see happening in 
Nigeria is a result of breakdown of law and order. Failure of 
institutions and structures. You do not have law enforcement 
officers that ought to be doing what they are supposed to do. 
You have bad people who are in charge of different 
organizations or different organs of government that insist on 
doing what is right for the common good of all of us, we choose 
to be selfish and so things in the wrong way.
    These are some of the things that have to be addressed, and 
the United States could do it. We saw what we did together from 
2003 to 2007. Things changed in Nigeria within a short period 
of time. We need action. We need to see those people to come 
along because it is not just a Nigerian problem.
    The world is a global village today. Whatever happens in 
Nigeria, it also affects you. Your taxpayers are paying the 
cost of corruption in Nigeria. It is time for us to realize 
that it is--we are all in this, and that we need you to come 
along. It is our responsibility as Nigerians to do it, but we 
need good people to come and stand for humanity to change, and 
change those people who are desperately in need of change.
    Thank you very much.
    [The prepared statement of Mr. Ribadu follows:]

 Prepared Statement of Nuhu Ribadu, Visiting Fellow at the Center for 
 Global Development, Senior Fellow at St. Anthony's College at Oxford 
                               University

    Good morning and thank you for this kind invitation, Chairman 
Feingold, Ranking Member Isakson, and distinguished members of the 
subcommittee. It is a cherished opportunity to speak to you today. Your 
subcommittee has shown sustained interest in Nigeria, an interest, that 
I must say, has not been misplaced or gone unnoticed.
    From a personal perspective, I would like to thank you, Senator 
Feingold, for the bold comments you made regarding my safety and 
security, after my removal from the chairmanship of the Economic and 
Financial Crimes Commission (EFCC). I recall, with gratitude, that you 
sent letters to President Yar'Adua in January 2008 and then again with 
Senators Levin and Isakson in December 2008. I remain eternally 
grateful for these timely acts of support and advocacy.
                       nigeria in recent history
    Nigeria, like most nations, has had its share of internal issues. 
We can all agree that this is not unusual for a country in our state of 
development. However, few will deny that we made relative, if even 
major, progress in the past decade. Much of this progress was made 
possible through a strong relationship with the United States. Sadly, 
in the short period since May 2007 when President Yar'Adua came to 
office, much of these gains were lost through ill-advised policy 
reversals and entrenchment of corrupt persons in strategic positions.
    This abuse of office and arrogance of power are emblematic of 
President Yar'Adua's governing style during his tenure in office. 
Nigeria's precipitous retreat from the reform gains made during former 
administration is due to the lack of preparation, vision, and the 
unbridled self-interest of many of the people Yar'Adua surrounded 
himself with.
    The story is now widely known that last November, President 
Yar'Adua left the country for medical treatment, and, typical of his 
administrations, left no one in charge of the affairs of the state. 
Naturally, the situation got worse. But fortunately for our country the 
Nigerian Senate acted prudently this month, recognizing Vice President 
Goodluck Jonathan as Acting President.
    Upon taking office, Acting President Jonathan signaled his desire 
for meaningful reform by immediately removing the controversial 
Attorney General and Minister of Justice Michael Andoakaa, affirming 
his commitment to electoral reform, reengaging the Niger Delta 
militants and taking steps to improve power generation and 
distribution.
    While this development presented us with the opportunity for 
change, it came loaded with the challenge for the democratic, legal, 
and peaceful resolution of our situation.
    True, the major challenge is ours. Yet the international community, 
and the United States in particular, must play a crucial role in 
ensuring that Nigeria seizes the opportunity of this moment to get back 
on track.
    I would like to take this opportunity to ask for America's 
assistance in restoring law and order to Nigeria and want to focus my 
remarks on three crucial recommendations:


          1. Insisting on constitutional and legal continuity;
          2. Restarting the fight against corruption; and
          3. Ensuring free and fair elections in 2011.
Constitutional and legal continuality
    I applaud Secretary of State Hillary Rodham Clinton and others, 
including Chairman Feingold, Ranking Member Isakson, and other members 
of this subcommittee, for your strong comments on the need for 
constitutional continuality and rule of law in Nigeria. But the time 
for talk is over; action is needed and action can only start with your 
direct engagement and communication with our new leadership.
    Nigeria proved its willingness to follow its laws and uphold its 
Constitution through the peaceful management of the crisis. We now have 
a sitting Vice President as Acting President, and with the support of 
the United States and others this trend could continue.
    To further this goal, the United States should: support Nigeria's 
civil society, monitor internal developments closely, state 
unambiguously that any resort to unconstitutional action against the 
Nigerian people will be resisted, and back prodemocracy movements 
inside the country.
    The breakdown of law and order is largely responsible for the 
incessant conflicts in all parts of the country, and this point must be 
strongly registered.
Fighting corruption
    There is no need to reiterate the problem of corruption in Nigeria. 
It is a well-known fact that without addressing the corruption problem 
all other problems--from executive lawlessness, to stealing of votes, 
and the pillage of state recourses for personal use--will remain 
untouched. The United States has already done so much to help fight 
this problem. The challenge of the moment is to demonstrate through 
action that enough is enough.
    As the head of the Economic and Financial Crimes Commission, the 
anticorruption agency in Nigeria, my team and I fought against this 
cancer alongside U.S. officials. Unfortunately, in 2007, I was forced 
out by the reentry of blatant acts of corruption. To help Nigeria get 
back on track, here is how the United States can help:
    First, the Department of Justice, the FBI and SEC need to continue 
the prosecution of cases we tirelessly worked on together. We have 
thousands of pages of detailed evidence and intelligence on corrupt 
officials which are sitting, waiting to be used. I am overjoyed to hear 
that in the United Kingdom, the Metropolitan Police is continuing with 
its case against former Gov. James Ibori. It will give most Nigerians 
cause to cheer that the United States also does the same and continue 
their cases.
    Second, expand on the Foreign Corrupt Practices Act. The FCPA 
allowed for the prosecution of a number of corrupt businesses and sent 
a wave of panic among those who were previously able to get away with 
their corruption. This line of action can be furthered if you include 
foreign nationals among those who can be prosecuted on U.S. soil. It is 
important to include those who accept the bribes and use your financial 
institutions to hide or launder these funds. Corrupt Nigerians fear the 
reach of U.S. law into their illicit activities. Start acting upon that 
fear.
    Third, it is time to deploy the powers already available in your 
instruments. You can encourage the administration to use existing 
powers under Proclamation 7750 by issuing travel bans against those 
known to be corrupt. The United States can also cooperate in the 
creation of Interpol red notices; confiscate stolen assets found on 
U.S. soil; and insist on the extradition of corrupt foreign nationals. 
You must continue to name and shame those who do not fear justice at 
home.
    Acting President Jonathan's emergence provides the United States 
with a second chance to purposefully reinvigorate the fight against 
corruption in places like Nigeria. These three broad acts are vital 
steps toward positively turning the situation in Nigeria around and can 
also be applied to the rest of Africa.
Electoral reform
    Perhaps the most important and pressing issue effecting Nigeria 
today is electoral reform. In the recent election in the Anambra state, 
the people showed they are ready to make their voices heard. This was 
only possible because President Yar'Adua and his cronies were 
distracted and unable to meddle in the democratic process.
    To ensure free and fair elections in 2011 however, the task needs 
to start now. The Justice Uwais Commission's recommendations are a 
modest but good start that needs to be followed through in its 
entirety. The National Democratic Institute and the International 
Republican Institute and others can start assisting now to support 
voter registration exercises.
    This can be followed up by encouraging the government to clean up 
the electoral commission by appointing credible personnel with proven 
integrity and credibility, while the civil society needs to be engaged 
and supported. They will be the true force behind a change for these 
elections.
    U.S. electoral funding support must change its approach to 
supporting Nigerian elections. U.S. prodemocracy NGOs must drill down 
to directly fund civil society initiatives at the state and local 
levels. Such changes are more cost effective and better integrated into 
the social framework of the average Nigeria.
    And the United States needs to back a level playing field so that 
all parties, including big and small opposition groups, can participate 
fully. The United States assistance is vital. Without it, change is 
going to be difficult. We must act now, well ahead of time. If we wait 
for polling day, it will be too late.
               future of united states-nigeria relations
    Nigeria has the potential to be a strong, regional leader and an 
important partner to the United States. But there is still a void. Last 
week there was a coup in Niger. I suggest that if Nigeria were strong, 
this would not have happened. In the current situation, Nigeria's 1,500 
kilometer-border with Niger Republic can serve as leverage for ensuring 
stability but today, it serves no other significance than for 
smuggling, especially in petroleum.
    And more than governance support is needed. Nigeria desperately 
needs technical assistance and policy attention to boost our power 
output necessary for our country's economic and entrepreneurial 
potential. Attention should be given to other aspects of Nigeria's 
socioeconomic equation to create jobs, spur small- and medium-sized 
business development and overall economic diversity. Nigeria's 
agriculture sector, long abandoned, has the potential to be West 
Africa's bread basket and reduce the impact of food insecurity.
    Nigeria must not be allowed to fail completely, as its ripple 
effect would be felt across Africa and even to the United States. 
Greater instability leading to the kind of military takeover in Niger 
will be the norm. You could see more young people like Umar Forouk 
Muttalab entering the country, boarding American-bound planes with 
murderous desires, while the supply of oil will be strained even more.
    This is a new Nigeria. Our destiny is no longer determined by one 
person or a group of people in a back room. Democracy has started to 
take hold. We see a new leadership rising up, new people-oriented power 
centers being created, and the people demanding more from their 
leaders. Religious politics are less important and the military is less 
interested in engaging. These are new phenomenon in Nigeria and they 
must be respected and nurtured. America can no longer take the attitude 
of keeping the lid on this boiling pot, we must work to turn down the 
flame.
    Chairman, members of the committee, I urge you to take this 
situation seriously, both for the opportunity, but also for the danger 
it presents. Nigeria and her people need the restoration of law and 
order. This is the time to act. It is our responsibility as Nigerians 
to do so, but we ask you today to join with us.

    Senator Feingold. Thank you, sir.
    Thank you all.
    I will do a round of questions. Mr. Ribadu, thank you in 
particular, I really appreciate your specific recommendations 
for how the United States can help Nigeria get back on track in 
its fight against corruption. And I will work to see that these 
recommendations are seriously considered.
    But I do want to ask you specifically about something you 
just were talking about--corruption in Nigeria's security 
forces, particularly the police. As you know, there continue to 
be reports implicating the Nigerian police force in Syria's 
human rights violations, including extrajudicial killing of 
persons held in police custody, torture, and extortion. And 
despite pledges to do so, the police--as I understand it--have 
taken no steps to investigate recent killings in Northern and 
Central Nigeria.
    In your view, what is needed to end the culture of impunity 
within Nigeria's police force, and how could the United States 
specifically help in this regard?
    Mr. Ribadu. Thank you, Mr. Chairman.
    A difference can be made. Simply look at what happened with 
the EFCC, the organization that I headed. We were engaged and 
we worked closely with the United States. We had over 40 
trainings from the FBI. We were taught how to probably be the 
best law enforcement agency in Africa. It made a difference. We 
never abused no one's rights.
    But if you see what is happening with the other law 
enforcement agencies in Nigeria, we attempted to do something. 
You know, personally we went after the leadership of the police 
at one time. We arrested the chief law officer of Nigeria. We 
recovered $150 million from the chief law officer, the 
Inspector General Police of Nigeria. It is literally impossible 
for you to have any law enforcement to perform his duties with 
a leadership like that.
    We tried to do something. What is needed for now, I 
believe, is strong--strong influence to be more or less, 
literally, I mean, force people to start realizing that unless 
you start changing, there's no possibility for you to get a law 
enforcement that will be able to perform. Bring in your best 
expertise, your technical knowledge, your skills and then 
possibly engage them in the way that they will be able to 
receive it. There's not any other way, apart from getting good 
partners on the ground in Nigeria, work with them, make them to 
realize and understand that it is in your own interest, first 
and foremost, before any other person and then possibly, maybe 
if they are ready to receive it, then change will come.
    Senator Feingold. If I were communicating with Acting 
President Jonathan, what are some tangible, visible steps we 
could ask him to show now that he is truly committed to 
confronting corruption and ending impunity?
    Mr. Ribadu. Thank you.
    First and foremost, to engage with him is the most 
important thing, at the highest level. Your own level, level of 
your own leadership. We've seen it happen before. And we saw 
the difference. In 2003 and 2007, President Bush talked 
directly with President Obasanju and we saw the difference it 
made. The leadership of the Congress spoke directly with our 
own leadership and we got the laws passed.
    I was the one responsible for the establishment of all of 
those fundamental things that helped brought change in Nigeria, 
for example, terrorist financing. We did a wonderful job, as a 
result of that political connection and linkage. First and 
foremost, Mr. Chairman, there is a need to get back on that.
    Two, tell them that you have the means to support them and 
you are ready to support them in the sense that you have the 
technical know-how and it is going to be available for them to 
make good use of.
    Three, your Excellency, Mr. Chairman, the money that you 
have and you want to support and send and help in Nigeria, 
please try to divert it towards the establishment of law and 
order, rule of law, and spend more on the institutions and 
structures that will support the establishment of law and 
order. Justice, fairness for other things to work.
    I'm not saying it is wrong to spend money in, for example, 
health--no. It is a good thing. But probably you may not see 
the value of it unless there is first and foremost law and 
order--security, stability--in the way that other things will 
work.
    I think there is a need to understand that fundamentally 
the challenge in Nigeria today is for us to even start to run 
things properly and correctly. Our law enforcement agencies, 
the justice sector requires more support, more of--in terms of 
your technical skills and knowledge--than any other. It will be 
a foundation for whatever that is going to come after to work--
policies and whatever assistance that will follow. But for now, 
it must be the most important thing. The President of Nigeria 
should understand that this is in his own interest.
    Senator Feingold. Thank you, sir.
    All three of you have touched upon the importance of 
electoral reform, the need for such reform is evident.
    Ambassador Campbell, as you noted, each of Nigeria's last 
three elections has been worse than its predecessor, and 
although President Yar'Adua committed to carrying out 
significant electoral reform, the process was slow going, at 
best, and it would seem that the Acting President now has an 
opportunity to get that process moving before next year's 
election, so I'd like to ask all of you to just say a bit about 
what concrete steps you believe the Acting President should 
take toward electoral reform and how the Obama administration 
can best encourage and support that.
    Let's start with you, Ambassador Campbell.
    Ambassador Campbell. Thank you very much, Mr. Chairman.
    First of all, and most basically, the reform of the 
Independent National Electoral Commission is far more than 
simply removing a corrupt individual or two at the top of it. 
It needs to be restructured in such a way that it is completely 
independent from the Executive, and it needs to have its own 
source of funding. It has neither, at present.
    Second, there needs to be some kind of realistic timeline 
to address elections in April 2011. Nigeria's an enormous 
country and has 150 million people in it. The sheer physical 
challenges of carrying out elections in an environment like 
that requires an enormous amount of advanced planning. As far 
as I can tell, there's no planning being done at all.
    Thank you.
    Senator Feingold. Dr. Lewis.
    Dr. Lewis. Well, I would certainly agree with those 
concerns. The Electoral Reform Commission that was chartered by 
President Yar'Adua in 2007 was an excellent group of 
individuals and they came forward with excellent 
recommendations for moving the election process and the 
electoral process forward. Unfortunately, once the paper was 
published, there was no action on the recommendations.
    There does need to be, in my view, a root and branch 
reorganization of INEC from the top--much of the Commissioners, 
the leadership--there are many good people who are dedicated 
civil servants at the grassroots in the line departments of 
INEC, but also many people that do not need to be there.
    It needs good leadership, it needs independent funding. 
Some of these things can be improvised, even in advance of the 
necessary legislative changes by a dedicated President if he is 
serious about making the change.
    There are serious questions about the registry, about the 
logistics of the election, and the planning really needed to 
start quite a while ago. But even if it starts today and it's 
not enough time, we have about a year to election season, and 
serious dedicated work could produce a much better election 
than we have seen in 2007, 2003.
    Finally, I would say that consultation with the political 
parties in an atmosphere of transparency and an invitation for 
civil society and independent electoral observers to be part of 
the process would also improve the transparency of the process 
and create a much better environment.
    Senator Feingold. Thank you, Doctor.
    Mr. Ribadu.
    Mr. Ribadu. Thank you.
    First and foremost, I think, is to get appropriate law on 
the ground. The Commission Report is a very good report that if 
it's passed into law it will give opportunity for the change we 
are talking about, one.
    Two, it's important to get people of integrity to supervise 
and run the elections. At this moment, we do not have that.
    Three, civil societies are extremely important. They are 
vehicles of change in elections like Nigeria. They need to be 
empowered. Governments fail. They need to engage the civil 
societies. And I think already we have a very vibrant civil 
society that is waiting for that in Nigeria.
    Four, elections is not just about the INEC, it also 
involves other institutions, what is up with the law 
enforcement, the police, the Secret Service. If they are not in 
a good, proper position to support and supervise and ensure 
security and order. Whatever other changes are taking place any 
other place will not be able to make a difference. The law 
enforcement has to change, as well, for us to see the 
difference.
    Of course, we need a fair, level, playing ground for all. A 
situation where government parties continue to do what they 
like and all of us at a disadvantage will make it impossible 
for a free and fair election. Conscious efforts must be made to 
protect the opposition, those people who are not in control of 
government and authority. And I believe it can be done.
    The moment that the world has said enough is enough, the 
time has come for the views and the opinions of Nigerians to 
become something that is meaningful that can reflect exactly 
what they are to be, I think it will change. Say we are not 
going to tolerate, again, any government that is going to come 
through any dubious affront--you are not going to tolerate and 
accept stealing of elections.
    If--we have seen it happen in a couple of other African 
countries where you can see clearly fraudulent elections taking 
place. And at the end of the day, they will come in and 
negotiate and remain. Two or three African countries today is a 
reflection of that, and you have not seen the end of the 
problems.
    I think time has come when the world will see it and then 
the United States will take the lead, that it is time for you 
to say that you are going to stand on the side of the people, 
not the few individuals who continue to do what they like just 
simply because they have the means and the control of the 
governments.
    I think this is the message that can change, if it very 
clear--clearly stated--that it is now over, you are not going 
to get away with it, we are not going to agree to you stealing 
the elections and cheating your own people.
    Thank you.
    Senator Feingold. Thank you, sir.
    Ambassador Campbell, in your testimony you noted that many 
Nigerians believe that military coup's alleged plan for 
December 31, 2009, and January 15, 2010, were averted because 
senior officials feared international disapproval. Nigeria's 
military has long played a role in trying to--a role, an often 
troublesome role in the country's political process. What's 
their current role in the current situation? Under what 
conditions, if any, could you envision the military or some 
segment of the military attempting to stage a coup and what 
should the United States and other international stakeholders 
be doing now to obviously discourage such actions?
    Ambassador Campbell. Thank you, Mr. Chairman.
    If I could take the last question first.
    Senator Feingold. Go ahead.
    Ambassador Campbell. What we need to do is reiterate over 
and over and over again and through every method we can the 
unacceptability of military intervention, and we should support 
the efforts of groups like the African Union, for example, that 
is making a very strong stand against military coups.
    As to what the role is of the military at the present time 
in Nigeria, it is extremely murky, it is extremely unclear. For 
example, the Nigerian press is already reporting that the 
military played an important role in getting the National 
Assembly to finally move to vote Goodluck Jonathan as Acting 
President.
    We do know that in early January, the military--not the 
civilian government--the military banned any military movements 
in the country right down to an individual level, which meant 
clearly somebody was nervous about something.
    Thank you.
    Oh, one other thing if I may add, the kind of elephant in 
the living room, from my perspective, is the coup in Niger. The 
border between Nigeria and Niger is a line in the sand, it's 
the same people on both sides. The coup in Niger was carried 
out by relatively young officers, majors, lieutenant colonels, 
colonels--people who are an entire generation younger than 
those who run the Nigerian military forces. Nigerian officers 
with whom we have very little contact. So, I have got no idea 
what's running through their minds.
    Thank you.
    Senator Feingold. Ambassador, again, in your testimony you 
said at the Binational Commission that we formed as a result of 
Secretary Clinton's trip to Nigeria, I'd like to hear just your 
thoughts on this Commission once it's fully operative--
operational--could it enhance and strengthen the United States-
Nigeria relationship?
    Ambassador Campbell. Absolutely. The Binational Commission 
is a means or a method. It provides a structure or a framework 
whereby the two governments can set up working groups to 
address issues of specific concern.
    For example, a Binational Commission would be a way to 
strengthen provisions and procedures having to do with money 
laundering. But there's a whole host of things that a 
Binational Commission can address. That's why it's such a 
useful tool.
    Thank you.
    Senator Feingold. Thank you.
    That will be the conclusion of the hearing, but let me just 
say how pleased I am that you joined us today and helped us. I 
really wanted to hold this hearing, I have been working on the 
issue of our relationship with Nigeria since 1993, including 
the days of Sunni Abacha and sometimes we've had to put 
enormous pressure, sometimes we've been able to reach out. I 
want to be accurate in the kind of steps we take to press the 
right levers at the right time, we're getting some good, 
specific suggestions here, but there can be no doubt that I and 
the members of the committee want very much to have a very 
strong relationship with Nigeria, and in particular the people 
of Nigeria, who are suffering from many of the problems that 
we've talked about today.
    Thanks so much, that concludes the hearing.


    [Whereupon, at 11:50 a.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
